<html>
<title> - A REVIEW OF THE PRESIDENT'S FISCAL YEAR 2013 BUDGET REQUEST FOR THE ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   A REVIEW OF THE PRESIDENT'S FISCAL
                    YEAR 2013 BUDGET REQUEST FOR THE
                    ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                (112-80)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 28, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation





                  U.S. GOVERNMENT PRINTING OFFICE
73-532                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                  (ii)




            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
JOHN J. DUNCAN, Jr., Tennessee       JERRY F. COSTELLO, Illinois
GARY G. MILLER, California           ELEANOR HOLMES NORTON, District of 
TIMOTHY V. JOHNSON, Illinois         Columbia
BILL SHUSTER, Pennsylvania           RUSS CARNAHAN, Missouri
SHELLEY MOORE CAPITO, West Virginia  DONNA F. EDWARDS, Maryland
CANDICE S. MILLER, Michigan          CORRINE BROWN, Florida
DUNCAN HUNTER, California            BOB FILNER, California
ANDY HARRIS, Maryland                EDDIE BERNICE JOHNSON, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
JAIME HERRERA BEUTLER, Washington,   GRACE F. NAPOLITANO, California
Vice Chair                           JASON ALTMIRE, Pennsylvania
CHIP CRAVAACK, Minnesota             STEVE COHEN, Tennessee
LARRY BUCSHON, Indiana               LAURA RICHARDSON, California
JEFFREY M. LANDRY, Louisiana         MAZIE K. HIRONO, Hawaii
JEFF DENHAM, California              NICK J. RAHALL II, West Virginia
JAMES LANKFORD, Oklahoma               (Ex Officio)
REID J. RIBBLE, Wisconsin
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Nancy Stoner, Acting Assistant Administrator, Office of Water, 
  U.S. Environmental Protection Agency...........................     8
Mathy Stanislaus, Assistant Administrator, Office of Solid Waste 
  and Emergency Response, U.S. Environmental Protection Agency...     8

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Nancy Stoner.....................................................    46
Mathy Stanislaus.................................................    53

                       SUBMISSIONS FOR THE RECORD

Environmental Protection Agency:

        Inserts for the record...............................19, 38 (2)
        Responses to questions from Hon. James Lankford, a 
          Representative in Congress from the State of Oklahoma..    63


[GRAPHIC] [TIFF OMITTED] 73532.001

[GRAPHIC] [TIFF OMITTED] 73532.002

[GRAPHIC] [TIFF OMITTED] 73532.003

[GRAPHIC] [TIFF OMITTED] 73532.004

[GRAPHIC] [TIFF OMITTED] 73532.005

[GRAPHIC] [TIFF OMITTED] 73532.006

[GRAPHIC] [TIFF OMITTED] 73532.007

[GRAPHIC] [TIFF OMITTED] 73532.008



  A REVIEW OF THE PRESIDENT'S FISCAL YEAR 2013 BUDGET REQUEST FOR THE 

                    ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                       WEDNESDAY, MARCH 28, 2012

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:09 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. Good morning. At this time, we will convene the 
Subcommittee on Water Resources and Environment.
    Our hearing today is on the review of the fiscal year 2013 
budget and priorities of the Environmental Protection Agency.
    I will start with my opening statement.
    In the last year, I have become alarmed at the overreach of 
the Environmental Protection Agency.
    The budget put forth from the administration for fiscal 
year 2013 does nothing to alleviate my concerns. Starting with 
the proliferation of so-called ``guidance'' coming out of the 
EPA on an exponential increase in regulations being proposed 
and finalized by the Agency, these are attempts to short 
circuit the process for changing a law without following a 
proper, transparent rulemaking process or the consent of 
Congress.
    These actions being carried out by the EPA are often based 
on questionable science at best, and stand to substantially 
increase the regulatory burdens for States, local governments 
and businesses, especially small businesses.
    At a minimum since my arrival in Congress, the EPA has 
sought to arbitrarily expand the scope of jurisdiction of the 
Clean Water Act, halt the issuance of permits for legitimate 
economic development activities, and revoke already issued 
permits, expand regulation of stormwater, including post-
construction site runoff, new development and redevelopment, 
and existing development through retrofitting.
    Inflicts ``one size fits all'' numerical water quality 
standards on States and river basins, usurps State authority by 
taking over watershed implementation plans for the Chesapeake 
Bay and other watersheds, subjects Appalachia to unequal 
treatment under the law by enforcing illegal so-called 
``enhancement coordination activities'' related to coal mining.
    Places States in the unenviable position of having to break 
Federal law or break State law when EPA issues guidance or 
draft guidance in the field.
    These actions among many others mean more unfunded mandates 
to burden our cities and towns at a time when they need relief 
from these types of injustices.
    The EPA has taken these actions with little regard to 
economic consequences, with little regard to national security, 
and most importantly, with little regard to the law.
    This is a Government agency that believes there is no limit 
to its power.
    I am pleased to see that the Federal Courts, including the 
Supreme Court in the Sackett case, and the U.S. District Court 
for the District of Columbia in the Mingo Logan case are 
recognizing EPA's power grab and are starting to push back 
against the EPA.
    Last week, the Supreme Court reigned in on EPA on the 
Agency's aggressive use of enforcement orders to strong arm 
property owners, and the U.S. District Court in DC reeled in 
EPA's overreach with the Agency's after-the-fact revocation of 
a 404 permit that had been issued to a West Virginia coal 
company.
    I am concerned that while the President is imposing more 
rate authority burdens on communities, businesses and citizens, 
he is at the same time calling for eliminating compliance and 
assistance of those same communities, businesses and citizens.
    The President's budget also calls for the reinstatement of 
an old and arbitrary Superfund tax on chemical companies, 
financial institutions, and other business sectors that may 
have nothing to do with creating the environmental problems 
associated with the Superfund site.
    What we have here is a Federal agency that will add to the 
burden of rules and regulations and eliminate programs to help 
communities come into compliance, but will also put more boots 
on the ground to track down those who cannot come into 
compliance with little or no benefit to the environment.
    This is Government at its worst, an agency cutting 
facilitators but increasing regulators.
    I want clean water as much as everyone, but I recognize 
that we have to have a strong economy so we can be able to 
afford to invest in new programs that new regulations require.
    Today is not the day to put more burdens on the American 
people. We need to make significant progress in creating long-
term jobs and a stronger economy before we can tolerate more 
expansive regulations.
    I now recognize the ranking member, Mr. Bishop, for any 
comments you may have.
    Mr. Bishop. Thank you very much, Mr. Chairman, and thanks 
to you, Ms. Stoner and Mr. Stanislaus, for being here today for 
this hearing on the administration's proposed fiscal year 2013 
budget for the Environmental Protection Agency.
    There is no question that the Federal Government faces 
difficult decisions as we seek to reduce our deficit and 
promote the growth of the economy and jobs at the same time.
    While I agree the deficit reduction is critical, I also 
feel strongly that the American economy needs jobs, and this 
Congress has a responsibility to support programs that create 
jobs.
    As we look to cut Federal investment, we also must remember 
that by investing in programs such as water infrastructure 
development and Superfund cleanups, we will actually create 
jobs.
    For every $1 billion we invest in wastewater 
infrastructure, for example, we can create as many as 33,000 
jobs in communities across America while improving public 
health and the environment.
    To that end, I believe the administration has tried to 
balance the need to reduce spending with the notion that 
infrastructure investment will benefit our economic growth.
    While both the State Revolving Funds and Superfund 
investment are slated for modest cuts, which in general, I do 
not support, I recognize that this budget request reflects a 
recognition that these programs are important job creators that 
provide economic and environmental benefits to local 
communities.
    Apparently, the Majority of this committee also believes 
you have achieved a successful balance with respect to your 
proposed budget.
    The 2013 view and estimates reported by the committee 
earlier this month repeatedly quotes ``supports the President's 
request'' with respect to the EPA budget. This is truly a 
noteworthy occurrence.
    However, with respect to the State Revolving Fund program, 
the proposed cuts to Federal spending contained in this budget 
highlight the importance of bipartisan action on addressing our 
Nation's crumbling wastewater infrastructure.
    This budget request further emphasizes the importance of 
long-term funding alternatives necessary to address the backlog 
of water infrastructure projects that await financing in my 
district and districts throughout the country.
    That is why I and more than 30 of my colleagues are 
sponsoring H.R. 3145, bipartisan legislation to not only 
authorize the Clean Water SRFs, but that also authorizes 
several new forms of financing for these projects, including a 
loan guarantee program, direct loans, and a Clean Water Trust 
Fund.
    If we truly want to provide the $15 billion a year, we need 
to address our crumbling infrastructure needs and create jobs, 
and an ``all of the above'' financing effort will be required.
    I know the Chairman is also interested in this issue, and I 
look forward to working with him on this effort.
    I also want to note that with respect to Superfund cleanup 
needs, the current Trust Fund is woefully inadequate to address 
the myriad of sites around the Nation that need to be 
remediated.
    In my district alone, there are four sites that are 
awaiting clean up, and we need to find the resources to address 
them.
    That is why I am an original co-sponsor of H.R. 1596 that 
would reinstate the Superfund tax and use the monies for their 
intended purposes, to pay for the clean up of Superfund sites.
    If we do not reinstate this fee on the businesses that 
create this pollution and the burden falls to the taxpayers and 
to the communities where the sites are located.
    I do not think that is fair and I do not think that makes 
sense.
    Therefore, I strongly support H.R. 1596 and the 
administration's proposal that the polluter pays principle be 
reaffirmed.
    Ms. Stoner and Mr. Stanislaus, you have a difficult job in 
protecting public health and the environment and ensuring clean 
and safe water for all Americans.
    That task is made all the more difficult in a constrained 
budgetary environment such that we have today.
    Some of my colleagues may present this committee with a 
false choice. We either have a robust economy or we protect 
public health and have a clean environment. They will argue you 
cannot do both.
    In my view, the health of the environment directly impacts 
the health of the economy and the two cannot be separated.
    With that, I look forward to hearing from you today, and I 
yield back the balance of my time.
    Thanks, Mr. Chairman.
    Mr. Gibbs. Mr. Bucshon, do you have an opening statement?
    Dr. Bucshon. Thank you, Mr. Chairman. Just briefly.
    Looking over the budget, it is a welcome thing that the 
budget request from the President is actually less for the 
Environmental Protection Agency.
    The reason I believe that is because of the ongoing 
activism of the EPA under this President, we see more of that 
in the papers today as the proposed CO2 regulations that will 
affect coal fired power plants, that could not pass Congress 
even under total Democratic control, and now this EPA feels 
like they can unilaterally under the administration put these 
types of regulations in place against the will of the American 
people, against the elected officials in this country.
    The EPA also used billions of dollars in stimulus money, 
and in hearings previously in this Congress, I asked for an 
itemization of where the money went, and I receive a piece of 
paper with about five lines on it, with general categories.
    That is also concerning because taxpayers' dollars were 
spent, in my view, for activism on the part of the EPA.
    We held a hearing here that showed that the EPA is setting 
water quality standards that are higher than a bottle of Evian 
or a bottle of Dasani water, things that cannot with current 
technology be met but are based on an ideological position and 
not on scientific fact.
    The budget request today that is less than last year is 
welcome, but my main concern coming from this Congress is where 
does the EPA stop, when will the EPA under this administration 
use scientific fact and not ideology.
    My fear is that probably is not going to happen. Taxpayer 
dollars that we do appropriate to the EPA are going to be 
continued to be used for the type of things that the 
administration wants, again, reminding everyone that most of 
these regulations could not pass Congress even under complete 
Democrat control.
    As a member of the Legislative Branch, I have serious 
concerns about that. I will be interested in hearing your 
comments. Thank you. I yield back.
    Mr. Gibbs. Mr. Rahall, do you have comments?
    Mr. Rahall. Thank you, Mr. Chairman. I commend you for 
calling today's hearings and thank the witnesses for being with 
us.
    Some time ago, it had long been my belief that the EPA 
could be a positive force in the permitting process for surface 
coal mining in West Virginia.
    After years of battles in courtrooms that left coal miners 
and coal communities in a long tenuous limbo, this EPA had an 
opportunity to help achieve a center point that would provide 
for both energy development and environmental preservation.
    It has utterly failed. Instead, the EPA took an extra legal 
approach, choosing to step over the bounds of the law to 
promote an ideological agenda, and in so doing, to push 
opposing parties even further from the balance we have all 
sought for so long.
    Ironically, it is now the courts again that are stepping 
into the void to preserve the law.
    It was a Federal District Court, as you have referenced, 
Mr. Chairman, last year, which found that the EPA had 
overreached in implementing an enhanced coordinating and review 
process for consideration of 404 permits for coal mining in 
Appalachian States.
    The court ruled that EPA grabbed for itself authorities 
never granted to it in the Clean Water Act, and the court said 
in that process that EPA also breached the Administrative 
Procedure Act.
    This last week, another Federal District Court ruled that 
this EPA went beyond the law when it reached back into time to 
veto a permit for mining that had been issued years earlier by 
the Army Corps, without formal objection from the EPA at the 
time.
    The court ruled and I quote ``That EPA exceeded its 
authority under the Clean Water Act by wrongfully taking for 
itself powers the law places in the Army Corps.''
    In fact, the court noted that the EPA's interpretation of 
the law ``fails because it is illogical and impractical.''
    It is not just politicians and not just coal miners and 
coal executives. Now it is the courts who are saying with its 
treatment of coal mining in the Appalachian States, the EPA has 
twisted the law, circumvented the Congress, and trampled on the 
right of the people to know what their Government is doing.
    In America, no agency can hide its actions under some veil 
of secrecy, but the EPA sure has tried.
    In February, the EPA's own Inspector General issued a 
report criticizing the Agency for its failure to keep a public 
record of its activities and decisions regarding coal mining 
permitting in Appalachia.
    As a result of its recordkeeping lapse, no one, not other 
agencies, not the States, not permitees, and not even EPA 
itself knows with any certainty the status of pending permits 
or what it takes to gain a permit.
    The IG suggested that the Agency may be in violation of the 
Federal Records Act, and went on to warn that because of its 
failure to keep records, the EPA cannot even discern whether a 
decision it claims to be making protects the environment or 
even acts actually resulting in environmental improvements.
    This Nation is ill-served by an Agency that is so driven by 
ideology that it cannot even follow the law.
    It is disconcerting that we are here in this committee once 
again appealing to the EPA to work with the Congress, our State 
regulatory agencies, and other Federal agencies.
    It is absurd that for the sake of the environment, the 
economy and our national energy needs, we are calling on this 
Agency to simply adhere to the law.
    Thank you, Mr. Chairman.
    Mr. Gibbs. Thank you. Mr. Miller?
    Mr. Miller of California. Thank you, Mr. Chairman. I am 
glad you held this hearing today.
    We need to examine the budget request for fiscal year 2013 
for the Office of Water. It is important to discuss in light of 
the recent judicial decisions on the way in which the Agency, 
and in particular, the Office of Water, implements the 
statutory obligations.
    It is important because we know that the resources 
available to carry out these programs have become increasingly 
constrained as we try to reduce an annual deficit and address 
the national debt.
    I am particularly interested in learning how the Office of 
Water can implement its responsibilities that will ensure that 
the most talented individuals can lend their expertise to the 
process of developing and approving NPDES permits and other 
elements of the Clean Water Act.
    I note this is a concern because it appears that the Office 
of Water continues to rely on an antiquated framework on who 
can be nominated and selected to sit on the Regional Water 
Quality Board in my own State of California.
    That is why I introduced the Sunshine on Conflicts Act. 
Since enactment of the Clean Water Act, the Office of Water has 
enforced a regulation that denies any individual that receives 
significant income from an NPDES permit or holder or applicant 
from consideration or selection to sit on the Water Board.
    ``Significant income'' is defined as 10 percent or more in 
a given year. In 1972, that Act might have been reasonable at 
that point in time, but since then, it has changed.
    Since 1972, the Act has evolved into a technically complex 
and hydroheaded regulatory program that requires a technical 
sophistication of well informed, experienced individuals.
    Unfortunately, the law and the regulation the Office of 
Water relies upon has not been amended or updated to take into 
account those changes.
    Today, we have a regulation program that presumes a 
conflict of interest based on one's income. The important point 
I want to emphasize is this rule applies to the individual and 
their immediate family.
    In my own region, we have seen a lunacy of this standard. 
An elected city official with extensive expertise in the water 
quality policy was rejected in as an attempt to be appointed to 
the Regulatory Water Quality Board because of the income 
restriction.
    The reason cited was his wife received income from a permit 
holder in violation of the rule.
    The problem was the wife worked as an elementary school 
teacher. Her school district holds a general water storm permit 
and pays her an annual salary. That was the total reason the 
individual was disqualified, because she worked for a group 
that holds a permit.
    Not only does this example scream credulity, it plainly 
illustrates the fact that we are denying qualified officials 
from sitting on important policymaking boards when there is no 
real or perceived conflict of interest.
    I am really interested to learn from the witnesses why the 
Agency has not taken aggressive action to remedy this clear 
violation in the step or direction you have taken in the past.
    The rules are vital. We should be careful to make sure 
there is not conflict of interest, but why can we not place the 
same standards we apply to judges or other elected officials 
instead of something like this?
    If I wanted to be on the Board and my wife was an 
elementary school teacher, that should not disqualify me from 
sitting on the Board.
    I am really interested to see why you have not changed 
those requirements and rules and if there is some way that kind 
of a rule can be overturned by the individual applicant.
    To this date, that individual was turned down solely 
because his wife was an elementary school teacher.
    I hope during the hearing you will address that, and I 
yield back the balance of my time.
    Mr. Gibbs. Thank you. Representative Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman. Thank you to my 
friends in EPA.
    I was listening to some of the opening remarks. I am 
hearing that we want to throw the baby out with the bath water. 
We want to relax more regulations. We want to create more 
cleanup sites for the future generations to clean up.
    We want to endanger the public health by cutting back the 
funding for some of the tribal, the Clean Water Act, the 
Drinking Water Act, the Superfund, and then we do not go after 
the potential responsible parties.
    In California, we have the higher standards than most of 
the rest of the States that have made our State the cleanest 
and most attractive to business, et cetera.
    Yet, we are saying it is OK, we can deal with the resulting 
illnesses that come out of the contamination in the water and 
others.
    EPA does not really have to be going after those PRPs, the 
potential responsible parties. I disagree.
    I thank you, Nancy and Mathy, for testifying. You have 
protected disenfranchised communities, the tribes, and I 
understand you are reducing the tribes who always traditionally 
and historically have been underserved and less supported in 
our efforts to assist them in clean drinking water.
    I can remember being in the Subcommittee on Water and Power 
and having the Navajos come in with a drawing from the children 
on where the water came from. It was a water truck. That is 
irresponsible and that is intolerable.
    We need to ensure that the small underrepresented 
communities have the same access to safe, clean water and 
infrastructure investment options.
    We need to ensure protection of our clean water sources and 
the importance of working with our neighbors to protect water 
sources in communities along our international borders.
    I include in that some of the ponds left by the fracking, 
the hydrofracking, the fact that those may not only endanger 
the aquifers but also the streams and rivers adjacent to 
communities that rely on that clean water that normally comes 
to them.
    We also thank you for the assistance in preventing the 
spread of invasive species, the quagga mussels, that are really 
costing our businesses and our water agencies millions upon 
millions of dollars to try to find out how to prevent them from 
gluing themselves onto the metals that prevent the water from 
going into the intake valves.
    We support the Superfund cleanup efforts. Mr. Stanislaus' 
testimony discusses the Pemaco Superfund site in Maywood, which 
is a city that is not adjacent to me but it is within 20 
minutes.
    It is a minority community, and the cleanup site, the 
effort put into it, has become an asset to the community. That 
is what we look forward to, being able to have park areas, 
involve the community in that effort and ensure they understand 
and have transparency in what really is affecting their 
community, and have the potential responsible party own up and 
be part of that effort.
    It is critical that we continue to protect and invest in 
environmental protection programs to ensure Americans have 
continued access to reliable safe and clean water sources.
    We cannot afford to let the regs relax in areas--I can 
understand there may be a little bit more of asserted efforts 
in some areas, but that should not preclude us from continuing 
to support EPA's effort to provide our communities, all our 
communities, with safe, reliable drinking water, and enforcing 
those folks that think they can get away with it for the 
almighty dollar.
    Thank you, and I yield back.
    Mr. Gibbs. Thank you. I would like to welcome our two 
witnesses. They are both from the United States Environmental 
Protection Agency.
    Our first witness is Ms. Nancy Stoner. She is Acting 
Assistant Administrator for the Office of Water, and our second 
witness is Mr. Stanislaus, Assistant Administrator of the 
Office of Solid Waste and Emergency Response of the U.S. EPA.
    Welcome, Ms. Stoner. The floor is yours.

  TESTIMONY OF NANCY STONER, ACTING ASSISTANT ADMINISTRATOR, 
  OFFICE OF WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY; AND 
  MATHY STANISLAUS, ASSISTANT ADMINISTRATOR, OFFICE OF SOLID 
  WASTE AND EMERGENCY RESPONSE, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Ms. Stoner. Good morning, Chairman Gibbs, Ranking Member 
Bishop, and members of the subcommittee. It is nice to see all 
of you again.
    I am Nancy Stoner, Acting Assistant Administrator for the 
Office of Water at U.S. EPA. Thank you for the opportunity to 
speak about the President's fiscal year 2013 budget request for 
EPA's National Water Program.
    The President's budget provides the resources necessary for 
EPA to continue our work in collaboration with States, 
municipalities, industry and the public, to ensure safe and 
clean water for all Americans.
    As Administrator Jackson has testified, this budget focuses 
on our core mission and sets priorities to make the best use of 
available resources.
    Clean water is not only a resource and asset to be passed 
on to our children, it is also a necessary part of life. Clean 
water is essential to public health, drinking water supplies, 
recreation, quality of life, and the welfare of families and 
communities, whether in large cities, small towns, or rural 
America.
    Clean water is also vital to the U.S. economy, an 
impressive variety of American businesses depend on clean water 
supply, including energy generation, tourism, farming, 
development, fishing, manufacturing, food processing, and 
beverage production.
    The EPA's request for the National Water Program is $3.41 
billion, a 9-percent reduction from 2012 enacted levels.
    Our request reflects the kinds of tough economic choices 
facing American families every day, eliminating extras, 
trimming everywhere, and focusing on essentials.
    The cuts are significant, but we intend to work effectively 
with less to continue to improve public health, water quality, 
and environmental protections, on which American communities 
and businesses depend.
    The Clean Water and Drinking Water State Revolving Funds 
provide capitalization grants to States which when combined 
with State resources use the funds to make affordable loans to 
local communities to finance drinking water and wastewater 
systems and other water quality projects that protect public 
health and vital water resources.
    We are requesting a little more than $1.1 billion for the 
Clean Water SRF, and $850 million for the Drinking Water SRF, 
enabling States and tribes to begin approximately 500 clean 
water and approximately 400 drinking water projects nationally.
    EPA will work with States to target assistance to small and 
underserved communities with limited ability to repay loans, 
while maintaining State program integrity.
    This budget proposes to eliminate the Beach Grant Program, 
with a reduction of $9.9 million in 2013. While beach water 
monitoring continues to be important, we believe most State and 
local government programs have developed the technical 
expertise and procedures to continue beach monitoring without 
additional Federal support.
    This budget request includes $72.6 million for the 
Chesapeake Bay program. The budget provides States with an 
additional $14.4 million in grants to make further progress on 
implementing the watershed implementation plans they developed 
to meet the Chesapeake Bay pollution reduction goals.
    In addition, EPA is requesting $300 million to continue 
robust funding for the Great Lakes restoration initiative, to 
reduce toxic substances, restore habitat, combat invasive 
species, and improve coastal health.
    Our request also includes $265.3 million for water 
pollution control grants. The EPA is requesting $15 million of 
the $26.9 million increase for States to strengthen their 
nutrient management efforts consistent with the Office of Water 
guidance issued in March 2011.
    Nitrogen and phosphorus pollution causes algal blooms, dead 
zones, fish kills, and increased drinking water filtration 
expenses.
    We believe that these additional funds will help ensure 
that States' clean water programs are effective in implementing 
their Clean Water Act responsibilities, protecting the 
environment, and supporting our economy.
    In conclusion, I would like to thank you, Mr. Chairman, and 
members of the subcommittee, for this opportunity to discuss 
the President's 2013 budget request for EPA's National Water 
Program.
    The President's budget reflects the EPA's ongoing efforts 
to carefully consider potential cost savings and reductions 
while continuing our commitment to core environmental and 
public health protections.
    Thank you again, and I will be happy to answer any 
questions you may have.
    Mr. Gibbs. Thank you.
    Mr. Stanislaus, the floor is yours. Welcome.
    Mr. Stanislaus. Good morning, Chairman Gibbs, Ranking 
Member Bishop, and members of the subcommittee.
    I am Mathy Stanislaus, Assistant Administrator for the 
Office of Solid Waste and Emergency Response.
    Thank you for the opportunity to appear today to discuss 
EPA's proposed budget for OSWER's programs.
    I will summarize my statement but ask that my entire 
written statement be submitted for the record.
    EPA's budget request focuses on fulfilling the Agency's 
core mission of protecting public health and the environment. 
The budget request fully reflects the President's commitment to 
reducing Government spending and finding cost savings in a 
responsible manner while supporting clean air, clean water, and 
clean land.
    To help clean up our communities, the President is 
proposing investments that clean up contamination and promote 
economic development and job creation.
    The President's 2013 budget proposes $164.7 million for 
OSWER's Brownfields Program. EPA's Brownfields Program uses its 
funding to successfully leverage economic investments.
    On average, more than $18 of private and public investment 
is leveraged for every public dollar that is expended through 
EPA's Brownfields Program.
    More than 75,000 jobs have been leveraged through 
Brownfields project funding since the inception of the 
Brownfields Program.
    In fiscal year 2013, Brownfields Program grantees are 
projected to assess more than 1,200 properties, clean up more 
than 120 properties, help create at least 5,000 cleanup and 
redevelopment jobs, and leverage more than $1.2 billion in 
cleanup and redevelopment funding.
    The Brownfields Program also provides funds for job 
training. EPA's Job Training Program has sought to ensure that 
the economic benefits derived from Brownfields redevelopment 
remain with local residents.
    As of January 2012, approximately 10,275 individuals have 
completed training, and approximately 7,155 obtained employment 
in the environmental field.
    These numbers indicate a cumulative placement rate of 
approximately 70 percent since the program was initiated.
    The fiscal year 2013 budget requests $1.176 billion for 
Superfund cleanup efforts across the country, which represents 
a $37 million reduction from the fiscal year 2012 enacted 
levels, and reflects the hard budget choices that are being 
made.
    Superfund Removal and Homeland Security Program funding 
levels are maintained with focused reductions associated with 
Superfund's remedial program.
    We expect a reduction to the Superfund Remedial Program 
will result in no new EPA led construction project starts in 
fiscal year 2013.
    EPA will balance the Superfund remedial pipeline by 
focusing on the completion of ongoing projects rather than new 
starts.
    We are committed to continuing the Superfund Program's 
success in protecting human health and the environment and 
providing local communities the opportunity for economic 
development by cleaning up the Nation's worst hazardous waste 
sites.
    For example, a January 2012 study completed by researchers 
at Duke University found localized benefits from the cleanup of 
Superfund sites across the country from the initiation of 
cleanup activities to the delisting of sites.
    Specifically, unoccupied housing within 3 miles of the site 
found its property values increasing from 18.6 percent to 24.5 
percent after the delisting of a site from Superfund's National 
Priorities List.
    Regarding our enforcement efforts, EPA has been 
particularly successful in leveraging appropriated funding 
through the use of responsible party settlements to establish 
site specific special accounts.
    Through the end of fiscal year 2011, EPA collected more 
than $4 billion including interest in more than 1,000 site 
specific special accounts.
    Of this amount, EPA has dispersed or obligated $2.2 billion 
for site specific response actions and developed multiyear 
plans for nearly 100 percent of the remaining funds in the 
special accounts.
    In total, through fiscal year 2011, EPA has secured more 
than $36 billion in responsible party commitments for site 
clean up and reimbursement of past costs.
    In addition, EPA's Emergency Response Program will continue 
to maintain its capability to respond to imminent threats to 
human health, including incidents of national significance.
    The EPA's Chemical Accident and Oil Prevention Programs 
play an important role in assessing and reducing risk of 
chemical accidents and oil spills.
    EPA's Risk Management Program works with the State and 
local prevention and preparedness programs to help protect 
communities from catastrophic releases of hazardous substances 
from facilities. The fiscal year 2013 budget request requests 
an additional $1.5 million to increase inspection of high-risk 
facilities.
    With that, I will close, and look forward to responding to 
your questions.
    Mr. Gibbs. Thank you. I will start off with the first 
questions.
    Ms. Stoner, in the budget, it appears when you talk about 
the cuts, we know there is a total cut, but it appears to me 
that there are more significant cuts to the States, like in the 
State Revolving Fund and other grant programs.
    Can you expound a little bit on what the cuts at the 
Federal level compare to? It appears the bulk of the cuts might 
be cuts to State monies. Is that correct?
    Ms. Stoner. The increases are actually for State programs. 
The State grant programs under the 106 Program for the Clean 
Water Act, the State drinking water program, an increase in 
what is called ``SDWIS,'' which helps to create the data 
systems, the Chesapeake Bay Program, to help the implementation 
by the States of the watershed implementation plans, that is 
actually where we saw an increase.
    Mr. Gibbs. Let me just stop you there. The programs you 
just mentioned, for the Chesapeake and other programs you 
mentioned, those are more like earmarks, but the programs that 
the States administer are being cut, like the SRF?
    Ms. Stoner. There are cuts that are proposed to the State 
Revolving Funds, that is correct, Mr. Chairman.
    I am talking about the programs that enable the States to 
run their programs. That is what the 106 Funds do under the 
Clean Water Act. That is what the Public Water System Program 
does under the Safe Drinking Water Act. We give that money to 
the States. They run their programs with those increased funds 
that we provide.
    Mr. Gibbs. How about 319?
    Ms. Stoner. 319, I think, is flat. Let me just check. That 
is a very important program. It does hugely important work on 
the ground, particularly to reduce nutrients.
    We have sought no cut to that, I believe, and we are also 
working very closely with USDA to align the funding under that 
program with their conservation funds to make sure every dollar 
goes further.
    Mr. Gibbs. How about cuts at the Federal level, 
administrative level, and DC level?
    Ms. Stoner. There are some cuts there. As I said, the 
increases are primarily to those State programs.
    Mr. Gibbs. OK. Moving on, recent court decisions withheld 
that the EPA acted unlawfully when engaging in enhanced 
coordination activities with Section 404 permits, and acted 
unlawfully when revoking an already issued 404 permit. I think 
you are well aware what that is.
    What is the Agency doing to change the culture of their 
unlawful behavior and repeated abuse of power after these court 
decisions issued recently?
    Ms. Stoner. Both of those matters, of course, are in 
litigation and we will be discussing them and our approach 
moving forward with the Justice Department and Office of 
General Counsel, Mr. Chairman.
    Mr. Gibbs. We are not talking about changing our processes? 
You cannot appeal because it was actually a Supreme Court 
decision.
    Ms. Stoner. We have already eliminated the enhanced 
coordination procedures/process that we had working with the 
Army Corps of Engineers as a result of that decision.
    We are also discussing with the Justice Department----
    Mr. Gibbs. What has happened to the permits that were 
hanging in limbo from the enhanced coordination process?
    Ms. Stoner. Well, we have eliminated that process. We are 
continuing to review current permits under 404 with the Corps 
of Engineers under our statutory and regulatory authorities.
    Mr. Gibbs. Another concern of mine is there has been a lot 
of discussion about EPA essentially working around 
``navigatable waters'' to change it to ``waters of the United 
States.'' I think that would also tie in a little bit with the 
connectivity study.
    I am wondering if you could share your thoughts on what 
EPA's intention is with that issue, the connectivity study, 
versus ``waters of the U.S.'' versus ``navigatable.''
    Ms. Stoner. Yes, Mr. Chairman. The study to which you refer 
is one being done by the Office of Research and Development. It 
is not new research but rather gathering peer reviewed 
literature on the connections between water bodies, to 
understand the science better to inform our thinking. That is 
what that study is about.
    On the ``waters of the U.S.,'' as I believe you know, we 
put out a draft guidance for public comment last spring. We got 
about 230,000 comments on that, about 90 percent of them were 
in favor of clarifying the scope of the Clean Water Act.
    Mr. Gibbs. Just to interrupt you there. My understanding is 
the first guidance went out as a proposal draft and what came 
out earlier this month, there was not much change.
    Did you really incorporate much of the 230,000 comments 
that were in the Federal Register?
    Ms. Stoner. We reviewed very closely those comments and 
have made some proposed modifications to reflect what we heard. 
That document is currently in interagency review.
    Mr. Gibbs. I will probably come back on the next round for 
some specifics on that.
    Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chairman. Thanks to both of you 
for your service and for your testimony.
    I want to focus in a little bit more on the SRF. This 
committee has had a series of hearings on the need to increase 
the amounts of money available from all sources to address 
approximately a $300 billion backlog in wastewater 
infrastructure projects over the span of our country.
    Because of our focus on the SRF and because of my 
particular interest in the SRF, I am worried about the 
President's budget that would propose a $291 million cut in the 
Clean Water SRF and a $67 million cut in the Drinking Water 
SRF. All total, $360 million and some.
    We understand that the Federal Government--we are looking 
to reduce our expenditures in all areas.
    One of the things that we are talking about is taking a 
tool box approach. We are talking about different methods of 
financing. We are talking about a WIFIA approach. We are 
talking about a Clean Water Trust Fund.
    The question to you, Ms. Stoner, is to what extent have you 
viewed both the Clean Water SRF as an essential tool in 
addressing wastewater infrastructure needs in the past and to 
what extent do you see it remaining an essential tool in 
addressing wastewater infrastructure needs?
    Ms. Stoner. The Clean Water SRF has been a great tool that 
has provided wastewater services to communities across the 
United States, and has been very important to helping finance 
that in many communities, large and small, including some very 
small and disadvantaged communities that have difficulty in 
funding that work without the assistance of the lower interest 
rates in the SRF.
    It has been a very successful program. It is a very popular 
program.
    Mr. Bishop. Would you agree it has been particularly 
helpful to small and medium sized communities?
    Ms. Stoner. It has been very helpful to those.
    Mr. Bishop. Thank you. One of the things I am worried 
about, this budget, as I said, is one that gives me great pause 
in certain areas, but I am worried, tomorrow we will be voting 
on Chairman Ryan's budget.
    It does not specify EPA, but the function, Function 300, 
that EPA is under in the budget is cut by some 18.8 percent 
over a 5-year period.
    Added on top of that is the potential implication of the 
sequester, if we move to a sequester, that would add another 9 
percent in cuts.
    If we move as Chairman Ryan's budget proposes to turn off 
the sequester on defense and load all the sequester onto non-
defense discretionary, that presumably would take that 9 
percent and make it 18 percent.
    We could be looking at some pretty big cuts, on the order 
of 30 to 40 percent, on EPA funding.
    How would the EPA accommodate that? I mean the mantra of 
this committee is ``do more with less.'' How much more would 
you be able to do with a 30-percent cut in funding?
    Ms. Stoner. Well, obviously, it would be very difficult. I 
must say I was surprised a little bit to hear the opening 
statements in terms of ideology.
    I think what we are talking about here is something that is 
very popular with Americans from all political and religious 
backgrounds, all kinds of backgrounds, all geography, we are 
talking about protection of water resources for future 
generations.
    We are talking about having safe tap water that Americans 
can go anywhere in the U.S. and know they can drink it.
    This is actually something that has been a bipartisan issue 
historically, is a bipartisan issue out in the countryside 
where I visit. Americans everywhere love clean water.
    We need to support it and work to support it here together, 
working together in Washington.
    Mr. Bishop. As you just said, that certainly reflects the 
view of my constituents on both sides of the aisle.
    I have a district that has water on three sides, and is 
enormously dependent on travel and tourism and seasonal homes 
as the foundation of our economy.
    One of the reasons that our area is attractive is because 
of clean water. I would agree with you.
    Mr. Stanislaus, there is a backlog in Superfund site 
cleanups right now of somewhere between 25 and 35 sites. Is 
that correct?
    Mr. Stanislaus. I believe that is correct.
    Mr. Bishop. If we were to carry forward with a budget--the 
President's budget proposes a $37 million cut, but $33 million 
of that $37 million is in the remediation portion of the 
budget. Big hit to the remediation portion.
    Again, same question to Ms. Stoner, if we were to carry 
forward with an 18.5-percent cut to Function 300, that would be 
evenly distributed? By the way, we do not know that. It is a 
reasonable assumption.
    Evenly distributed among the programs that are covered in 
Function 300 if we were to load on top of that either 9 percent 
sequester or 18 percent sequester, what would that do to the 
ability of the EPA to continue with the Superfund program, by 
how much would the backlog grow, we are at 25 to 35 now? Would 
we be able to address the backlog? Would more sites be added to 
the backlog?
    Mr. Stanislaus. Clearly, any further cuts will result in an 
increase in the backlog. I cannot give you an exact number.
    With respect to the President's proposed budget, we are 
recognizing in tough budget times that we will continue to do 
the work on existing sites, but beginning clean up of new EPA 
funded sites, we will not be able to do it with the fiscal year 
2013 budget. Any further cuts would mean additions to the 
backlog.
    Mr. Bishop. Thank you very much. I have exceeded my time. I 
yield back, Mr. Chairman.
    Mr. Gibbs. Mr. Bucshon?
    Dr. Bucshon. Thank you, Mr. Chairman.
    Ms. Stoner, can you remind me how much stimulus money EPA 
received? Do you remember how much that was in 2009, I think it 
was?
    Ms. Stoner. I think it was $6 billion.
    Dr. Bucshon. $6 billion. Has that money all been used? Have 
you spent all the $6 billion that you were given through the 
stimulus program?
    Ms. Stoner. Not all of it has been used yet because a lot 
of it funds construction projects that were begun but have not 
yet been completed.
    Dr. Bucshon. If you would take that $6 billion in addition 
to your annual budget, let's say over 10 years, that would be 
what, $600 million a year over 10 years? Approximately.
    Ms. Stoner. Right.
    Dr. Bucshon. If you added that number to 8.3445, that would 
make the budget really over the next 10 years that you are 
actually going to receive after the stimulus, let's say over $9 
billion, not actually the $8.3 billion, which would be a 
significant increase over what the budget was previously, say 
the budget in 2008, which I think was about $8.3 billion.
    Would you agree with that?
    Ms. Stoner. I am assuming your math is correct, yes, 
Congressman.
    Dr. Bucshon. I guess my point is this, I am hearing today 
how this is dramatically going to decrease the ability of the 
EPA to have clean water and clean air across this country 
because of a $104.9 million decrease from the enacted level.
    In actual fact, if you factor in stimulus money that was 
given to the EPA in 2009, I believe, overall, the EPA is flush 
with money compared to previous budgets in my view. Would you 
agree or disagree with that?
    Ms. Stoner. Well, the cuts you are talking about are not 
the cuts that are in the President's budget.
    We are not saying that the President's budget would result 
in those severe consequences that you are reflecting.
    Dr. Bucshon. Which cuts are you talking about? If it is not 
the ones in his budget proposal, his proposal proposes to 
decrease your budget by $104.9 million less than the enacted 
level in 2012.
    Ms. Stoner. Right. That is correct.
    Dr. Bucshon. OK.
    Ms. Stoner. We are not saying that the President's budget 
would--what we are saying the President's budget does is focus 
on the priorities and ensuring that the dollars are spent as 
effectively as possible, and some tough cuts were made.
    We are not saying that those would have a dire impact. I 
thought that is what you----
    Dr. Bucshon. That was the impression I was getting from 
hearing some of the questioning. I would hope that every 
Federal agency is always using the taxpayer dollars as 
effectively and appropriately, and we would not have to rely on 
just when a President, regardless of which President's budget 
comes out, but every agency is always using the taxpayer's 
dollar as effectively and efficiently as we can.
    Ms. Stoner. That is our goal.
    Dr. Bucshon. Yes. The $6 billion, I asked a number of 
months ago where that money is being spent, and I received a 
piece of paper with about five itemized--do you have an 
itemization of how you spent an extra $6 billion, the 
specifics, and what projects are being funded and all that?
    If you do, I would like that information.
    Ms. Stoner. We would be happy to provide additional 
information.
    Dr. Bucshon. That is my main issue. When I hear the dire 
straits situation, about clean water and clean air, and then 
the American people do not really know the facts, that you also 
had an extra--you are saying $6 billion. My number was over $8 
billion in stimulus money.
    I would argue that what you are trying to make it out to be 
is not correct, and that even though it appears, whether it is 
the Republicans in the House, whether Chairman Ryan's budget 
comes out, what number they come out with, will result in any 
significant way impinging on the EPA's ability to make sure all 
of us have clean water.
    By the way, I agree with your statement that everybody 
across political lines want clean water and clean air.
    In the abstract, that is very true. Of course, I want that. 
I have four kids. I do not want them to turn on the faucet and 
have dirty water.
    On the other hand, you also have to recognize the fact that 
setting standards to the point where they are not attainable 
with current technological advances, whatever you want to call 
it, and wasting the taxpayers' dollars trying to pursue an 
ideological position is also something that if I told people 
across the political spectrum, they would not agree with that 
either.
    I yield back.
    Mr. Gibbs. Mr. Rahall?
    Mr. Rahall. Thank you, Mr. Chairman. Thank both of you for 
your testimony this morning.
    Ms. Stoner, what you just said earlier about everybody 
wanting clean water, as the gentleman from Indiana just 
referenced, certainly, that is a commendable goal, and we all 
want to see that.
    It is always the question of the proverbial pendulum 
swinging perhaps too far one way in the previous administration 
and now there is a perception that it is swinging too far the 
other way in this administration.
    We have to find the proper balance, in my opinion. We can 
have Clean Water. We can have safe drinking water for our 
children and our grandchildren. Yet, at the same time, we can 
have jobs. That is certainly the paramount concern of the 
constituency I represent, jobs.
    Indeed, when we passed SMCRA back in 1977, my first year in 
this body, my first Conference Committee upon which I sat, we 
had as our goal the dovetailing, the need to protect the 
environment and the need to provide jobs for our people.
    We struck the proper compromises and we were able to meet 
those twin goals, in my opinion, as established under SMCRA.
    I recognize that job creation is not particularly a 
jurisdiction of the EPA or a consideration of the EPA in 
decisions that you make. Job protection, I would think, should 
be some consideration.
    You can respond to that if you want. I want to get to a 
specific question. That is how many 404 permits has EPA given 
the go ahead on since the April 1, 2010, issuance of your 
conductivity guidance for coal mining in the Appalachian 
States?
    Ms. Stoner. First of all, on the topic of jobs, we 
certainly view our work on surface coal mining to be directed 
at ensuring that discharges associated with surface coal mining 
activity protect public health and the environment, and that 
those are done in a way to allow the mining company to move 
forward with that activity and to achieve the goals of the 
Clean Water Act. That is our goal.
    Mr. Rahall. Not job protection.
    Ms. Stoner. Our goal is to ensure that the activities can 
go forward so that people can have those jobs and also have 
clean water.
    Of course, I have been many times to West Virginia, to the 
beautiful streams that you have there, and they are fabulous 
resources.
    Ensuring that people have those resources and jobs, that is 
our goal, absolutely.
    The number on the 404 permits is more than 110 permits have 
been issued since 2009, since the beginning of this 
administration.
    Mr. Rahall. That is the number that has been submitted.
    Ms. Stoner. No, those are the ones issued by the Army Corps 
of Engineers in Appalachia.
    Mr. Rahall. Could you submit that to the subcommittee, 
please?
    Ms. Stoner. Yes, sir.
    Mr. Rahall. Thank you. It has come to my attention that EPA 
is now reviewing a majority of coal mining NPDES permits in 
West Virginia.
    As you know, NPDES is an authority delegated to the State. 
Why is EPA now after all these years respecting delegated 
authority, now intervening in this area?
    Ms. Stoner. We are working with the State of West Virginia 
on improving those permits to ensure that those activities move 
forward and the discharges associated with them are consistent 
with the requirements of the Clean Water Act.
    Mr. Rahall. In consultation with the State of West 
Virginia?
    Ms. Stoner. Yes, we work very closely in looking at those 
permits that you just referred to. We work with the State. My 
Region 3 office, I think, has been making a lot of progress 
that they are very proud of, working with West Virginia to 
improve those permits.
    Mr. Rahall. As you know in working with our State, we have 
worked very hard to try to strike this proper balance. We have 
tried very hard to work with the EPA over the years.
    It is not our intention to just bad mouth you at every turn 
of the road. We want to work with you. That is our goal in West 
Virginia, as long as our authority as a State is respected as 
well.
    That is something we established again going back to SMCRA, 
that we had minimum Federal guidelines so one State could not 
undercut another State, yet we allowed State authority where 
those minimum Federal guidelines were met to respect their 
authority.
    That is what I hope we can strike here as well.
    Ms. Stoner. We agree. We are working closely in partnership 
with West Virginia on those permits.
    Mr. Rahall. Thank you. Thank you, Mr. Chairman.
    Mr. Gibbs. Just for a quick clarification, did you say 110 
permits had been issued?
    Ms. Stoner. Yes, sir. For surface coal mining or coal 
mining operations in Appalachia since 2009, yes, sir.
    Mr. Gibbs. Yesterday Secretary Darcy, Secretary of Civil 
Works of the Corps, testified 80. So there is just a little 
difference in numbers. They testified there was 80.
    Ms. Stoner. We will work with them to reconcile our 
records.
    Mr. Gibbs. OK. Thank you.
    Mr. Crawford.
    Mr. Crawford. Thank you, Mr. Chairman.
    I just want to direct my question to Mr. Stanislaus real 
quickly. This has to do with the EPA's Spill Containment 
Compliance and Countermeasure Program.
    I understand that the EPA's final rule was delayed last 
year until May of 2013. Does your 2013 budget request account 
for the costs associated with implementing the SPCC Program on 
farms?
    Mr. Stanislaus. Well, yes. Clearly, as part of the budget 
it incorporates the series of activities affecting spill 
prevention and containment countermeasures, which as you know 
the reason for the delay in the compliance date is because we 
heard from lots of representatives from the farming industry 
who said that they needed that additional time. So we granted 
that additional time.
    We have also met with a number of bureaus and trade 
associations in terms of doing targeted outreach. We are in the 
middle of doing that. We are also in the middle of scheduling a 
followup meeting with them in the next few weeks.
    Mr. Crawford. OK. Is there any chance that you might 
consider a further delay until an even later date than May 
2013?
    Mr. Stanislaus. No. I mean, that date was selected to give 
essentially two growing seasons of opportunity to do the 
outreach and for the farms to prepare the spill prevention and 
countermeasure plan. And just so that I am clear, for 90 
percent of the farms, 95 percent of the farms, it merely means 
identifying a plan and keeping it at the facility itself. So 
there is no submission to EPA.
    Mr. Crawford. OK. As I understand it, the final SPCC rule 
required farmers with more than 1,320 gallons of oil or gas 
storage to comply with the regulations; costs tens of thousands 
of dollars; and would require the procurement of professional 
engineers.
    The 1,320 gallon threshold would include most farms. Does 
EPA have any data on farm spillage that justifies such a low 
exemption amount?
    Mr. Stanislaus. I can provide you that data. And just to be 
clear with respect to the use of professional engineers, only 5 
percent of farms, because of their size, would require 
professional engineers. The remainder do not require a 
professional engineer.
    Mr. Crawford. OK. I understand historically the facility or 
entity reporting a spill to the National Response Center is not 
required to identify that facility as a farm. So the EPA would 
not have such data available. In fact, a 2005 USDA document 
states that over 99 percent of the farmers surveyed had not 
experienced a fuel or oil spill in excess of 1,320 gallons.
    Given these facts and your response, I am still trying to 
wrap my head around what kind of methodology the EPA uses to 
come up with such an unreasonable number.
    Mr. Stanislaus. Well, again, I will get back to you in 
terms of the data. The thresholds are really based on the size 
of the vessel which would cause a release, which would impact, 
among other things, waterways of the United States.
    [Environmental Protection Agency insert for the record 
follows:]

        The 1,320 gallon threshold quantity, which currently 
        applies to all facilities, was promulgated in the 
        original Spill Prevention, Control and Countermeasure 
        (SPCC) rule in 1974. The Federal Water Pollution 
        Control Act specifies there shall be no oil discharges 
        to waters of the United States (U.S.); therefore, the 
        threshold quantity established was set at an amount 
        which would help prevent spills harmful to waters of 
        the U.S., but not present too great a regulatory 
        burden. The threshold amount was greater than the 
        volume of two of the largest typical home heating oil 
        tanks in use at that time. SPCC applicability is not 
        based on a facility's spill history; rather, it 
        addresses the hazard associated with the storage of oil 
        and the potential for harm to the aquatic environment 
        in U.S. waters if even a small amount of oil is 
        discharged.

        Oil has been spilled into U.S. waters from facilities 
        in every business sector covered by the SPCC rule, 
        including farms. The National Response Center (NRC) 
        annually receives more than 20,000 reports of oil 
        spills from a wide range of sectors. However, specific 
        oil spill data for any one sector is not readily 
        available using the NRC reports because they are 
        intended to determine the need for immediate Federal 
        response action and not for statistical analysis of 
        spill frequency in any one particular sector.

        Bulk containers holding oil at a farm are no different 
        than the bulk containers holding oil at any other type 
        of facility. These containers are often used to provide 
        fuel for farm vehicles and they operate the same as 
        containers for vehicle fueling at terminals or 
        construction sites. Consequently, the basic SPCC 
        requirements for a bulk container at a farm are 
        identical to those at other facilities; e.g., provide 
        secondary containment and be ready to respond to ensure 
        spilled oil does not reach U.S. waterways.

        However, EPA has recognized there are certain 
        circumstances unique to farms. In the past several 
        years, EPA has amended the SPCC requirements to 
        streamline and reduce the applicability of, and 
        compliance burden for farmers, such as:

            <bullet> LAn exemption for all heating oil tanks 
            used for single family residences (e.g., the 
            farmer's home);
            <bullet> LAn exemption for application and mix 
            containers holding pesticide adjuvant oils;
            <bullet> LA flexible definition of facility whereby 
            oil storage containers on separate land tracts at a 
            farm do not need to be aggregated toward the 
            threshold quantity;
            <bullet> LAn exemption for most milk and milk 
            product containers; and
            <bullet> LA clarification on permanent bulk 
            container closures and nurse tanks specifically 
            written to address farm operations.

        Finally, EPA simplified the rule requirements for 
        facilities with smaller oil storage (such as farms) to 
        allow self-certification of their SPCC Plans, and in 
        some cases, to fill out a standard template that serves 
        as the Plan.

    Mr. Crawford. OK. I understand 10,000 gallons is a 
definition that defines a small farmer. Do you think a 10,000 
gallon threshold is a more reasonable approach than 1,320?
    And further, does the EPA have the capacity within its 2013 
budget request to regulate every farm whose storage exceeds 
1,320 gallons?
    Mr. Stanislaus. With respect to the thresholds, our 
thresholds are really based on, again, the size of a tank from 
which a release could impact the environment and waterway. So 
it is based on our evaluation of that.
    I am sorry. Your second question was the level of outreach?
    Mr. Crawford. Yes. I guess my question is if we raise that 
level to 10,000 gallons, which is actually the definition of a 
small farm, 10,000 gallons of fuel storage, would the EPA's 
budget request be smaller to reflect that if the program had a 
higher exemption level for farms?
    Mr. Stanislaus. Well, clearly, farms is one of the various 
sectors that we are going to be conducting outreach to. Spill 
prevention, the SPCC Program is primarily a self-implementing 
program. So it is primarily for the regulated entities to 
develop plans, and we are all going to be doing outreach to 
various sectors to make sure that they understand their 
requirements.
    The agriculture industry has asked for special outreach. 
Given the seasonal nature of that, we are in the midst of doing 
that.
    Mr. Crawford. OK. Thank you.
    And I thank the chairman for his flexibility and yield 
back.
    Mr. Gibbs. Mr. Miller, questions?
    Mr. Miller of California. Yes. Thank you, Mr. Chairman.
    You know, I do like your comment on clean water and clean 
air. We all support that. I mean that is a given. I think it is 
how we go about doing it in many cases that causes some of us 
some problems.
    I represent between San Bernardino County and Orange 
County, and they have done some of the best work in the Nation, 
getting that water back on the aquifer. I mean, Prado Dam is 
right at the edge of San Bernardino and Orange County, and we 
provide water for about 2.8 million people from there. When 
water gets to that dam, it never gets to the ocean.
    We have got huge chloride problems, you know, in San 
Bernardino County above that we are trying to deal with, and I 
guess one of the problems we are having is on discharge. The 
housing industry has been devastated in the country, and the 
amount of water that has got to be retained and detained on 
site because of regulations placed, you know, on them, and you 
wonder if there is really a true benefit based on the cost and 
the impact on the private sector on some of the regulations.
    I applaud you in many of the areas we go to and you try to 
make sure that the rules are in place and they are clearly 
defined where, you know, we can make sure the water is clean. 
Nobody wants water running off a copper mine, you know, into 
the channels and ending up being in the water supply. That is a 
real problem, and I know members of this committee are 
concerned about areas they represent in coal and those types of 
things.
    I represent a lot of dairies, and that has been a real 
problem over the years with detention on site and when you have 
huge downpours and waters running onto a poor farmer's property 
and causing a discharge. I have had farmers actually fined by 
EPA for something that was just actually a flood control 
district problem rather than their problem.
    But we talked earlier in my comments about how we deal with 
getting Water Quality Authority personnel to be able to apply, 
and I think it is an antiquated procedure used and a conflict 
of interest. Have you started to look at any updating on that 
and becoming more realistic?
    I am not trying to get the Agency to say we should not have 
conflict of interest rules because we clearly should, but when 
you have a conflict on a Water Quality Authority that is far 
more stringent than on judge or other elected officials, it 
seems like we need to update that.
    Could you kind of respond on that?
    Ms. Stoner. Yes. That actually is an issue I am familiar 
with, and we are looking at that now in a proposal that we have 
that is in discussion in interagency review.
    Mr. Miller of California. My previous statement was not an 
attack. It was just to give you an example. We just experienced 
in our area where an elected official's wife is actually an 
elementary school teacher, and because the school district 
holds a permit, that individual who was really qualified could 
not be appointed to the Water Quality Authority.
    Well, give me some idea of what you envision in developing 
an alternative in the future and some type of timeframe on 
that. Do you have any idea?
    Ms. Stoner. Well, at this point we are just looking at the 
issue and figuring out what we can do to address it, but we are 
aware of it, and we are giving it consideration right now.
    Mr. Miller of California. Would you have somebody respond 
in writing to me when you have come to some conclusion on what 
you think could be done so we know where you are going?
    Ms. Stoner. I think there will be something for the public 
that we could provide to you. Yes, I appreciate that.
    And I did want to comment on the waste water reuse point 
that you made earlier. The area of the country that you 
represent really is leading efforts on that, and I think it is 
something that more communities will be doing, finding that 
waste water and storm water to be a resource to add to and 
augment the water supplies, and that that can save energy and 
save money and is a great thing to do.
    So we appreciate the innovation that is occurring in your 
district on that.
    Mr. Miller of California. We have just replaced a brine 
line out there that was absolutely necessary to deal with the 
problems. But the source of, I guess, discharges you would have 
to apply it. The way it is being applied to the housing 
industry today, it seems like a little heavy handed. I mean, I 
look at all of the years I have watched houses being built, and 
they are built throughout this country and those requirements 
have been replaced. Now they are requiring in many cases on-
site detention, which makes it very difficult in a lot of cases 
to apply to a project. It is not cost effective.
    But I am not certain that it is really creating that much 
of a benefit. Has that really been looked into?
    Ms. Stoner. We are definitely looking at the benefits 
associated with those kinds of approaches. The National 
Research Council has urged us to do that, to look at ways of 
addressing pollution loading and flooding, as you mentioned, 
augmenting water supplies, other ways of addressing the storm 
water in a way that provides multiple benefits for communities 
and is cost effective.
    Mr. Miller of California. It seems like we do have some 
monsters out there that have discharge problems and truly 
contaminate, and then we have these little ants that we are 
adding to it, like the development projects, those types of 
things. And it just seems like the costs associated with that 
are just excessive based on the benefit of the actual yield.
    So I would hope you would really look at that in a fair 
perspective and say is there really a benefit to what we are 
doing based on the costs associated with those sources that 
truly, truly pollute our water systems and that we do need to 
look at. I mean, if you could do that, I would appreciate that.
    Ms. Stoner. Yes. We certainly will be looking at that, and 
that is another area where there is lots of innovation. Lots of 
developers are figuring out how to achieve better water 
protection and also better profits for them in the developments 
that they put together. So we are talking closely with them and 
those who can inform us.
    Mr. Miller of California. Profits are not my concern. It is 
the cost associated with is there a true benefit.
    Thank you. I yield back.
    Ms. Stoner. Thank you.
    Mr. Gibbs. Mr. Denham.
    Mr. Denham. Thank you, Mr. Chairman.
    Ms. Stoner, we have been talking a lot on this committee 
about flexibility of current regulations, and as we go forward 
and pose new regulations, I want to make sure that we continue 
to have that same type of discussion on flexibility.
    In California, obviously we have the strongest 
environmental policy with CEQA. In this committee we have been 
talking about NEPA regulations and whether or not you go 
through the same regulatory process twice or whether or not 
there are some opportunities to create some efficiencies by 
combining efforts.
    I think the same thing could be said here. The State of 
California already has a regulatory framework in place for 
316(b) which allows for a site specific approach for 
impingement. So would EPA not support providing States the 
flexibility to make these important permitting decisions given 
their longstanding expertise with these unique facilities?
    Ms. Stoner. Our current proposal does have a lot of 
flexibility in it with respect to the cooling water intakes, 
the 316(b) that you are talking about, particularly with 
respect to the entrainment. We are working right now and it is 
in interagency review a Notice of Data Availability that would 
offer some alternatives on impingement as well.
    Mr. Denham. And when evaluating the cost-benefit ratios 
associated with the technology requirements of the rule, do you 
consider site specific external factors, such as ability to 
comply with regulations on reliability?
    Ms. Stoner. Again, the current proposal talks about looking 
at those site specific factors with respect to entrainment. 
That is already in there for the decisions that would be made 
at the State level if that proposal were finalized.
    Mr. Denham. I thank you. No further questions.
    Mr. Gibbs. Mr. Shuster.
    Mr. Shuster. My line of questioning goes along the same 
line that Mr. Denham was talking about, and I am not sure I 
quite understand your answer. The closed cycle cooling towers, 
companies presently are installing them and have installed 
them, and I believe the EPA agrees that it is the best 
technology available to minimize the environmental impacts.
    Ms. Stoner. That is correct.
    Mr. Shuster. Yet you are also asking EPA's proposed 
required facilities to spend hundreds of millions of dollars to 
satisfy additional impingement requirements; is that correct?
    Ms. Stoner. Closed cycle cooling itself addresses the 
impingement. So our position in the proposal that we put out is 
that closed cycle cooling is the best technology, but not 
available everywhere, but where there is closed cycle cooling 
being used, that addresses impingement.
    Mr. Shuster. So you are going to continue to require them 
to invest additional dollars to deal with the impingement 
issue?
    Ms. Stoner. No, not facilities that have closed cycle 
cooling. The issue that we are seeking to put out additional 
options on with respect to impingement is for facilities that 
do not have closed cycle cooling, and also impinge the fish. So 
we are putting out additional information on that issue.
    Mr. Shuster. So that I am clear, if you have a cooling 
tower, you are not going to be required to spend additional 
monies to satisfy your proposal.
    Ms. Stoner. Right. Closed cycle cooling addresses 
impingement, yes, sir.
    Mr. Shuster. All right. Thank you very much.
    Mr. Gibbs. Mr. Lankford.
    Mr. Lankford. Let's keep going on the 316(b) conversation, 
trying to get some additional clarity. Finalizing the rule by 
July 27, are we still on track for that?
    Ms. Stoner. We do need to get that Notice of Data 
Availability out in order to meet that deadline.
    Mr. Lankford. That was the question.
    Ms. Stoner. But we are working toward that deadline, yes, 
sir.
    Mr. Lankford. When that comes, will there be a comment 
period after that?
    Ms. Stoner. Yes.
    Mr. Lankford. OK. So we have got hopefully by July 27th 
there will be the Notice of Data Availability. There is a 
comment period, and then it is going to come out.
    Can I ask a clarification on just authority in an odd 
sense? Where does EPA derive the authority to affect fish 
impingement on the screens?
    Ms. Stoner. Three, sixteen (b) of the Clean Water Act.
    Mr. Lankford. Right. I understand, but it is not dealing 
with a clean water issue. When I go through 316(b) and look at 
it, dealing with a minnow dying next to a power plant, it seems 
a stretch to me in that based on what I am reading. Am I 
missing something on that?
    Ms. Stoner. I think it is pretty clear that 316(b) applies 
to it. I am sorry that I do not have the provision in front of 
me right now.
    Mr. Lankford. Here is my issue. Fish and wildlife I can 
understand. One of the lakes in Oklahoma where we have this 
particular power plant sitting next to it, the lake was built 
by the power plant. It is a great fishing lake. It is very 
involved.
    I have been to that screen and looked at it. I have seen 
the data of the fish that are impinged on it. The fish that are 
being impinged in this particular lake, because of the design 
of it, are very, very small. They are minnows. They are fishing 
minnows basically on the bottom of the food chain there. I have 
a difficult time finding where it affects the clean water 
availability based on the fact that minnows die in a very large 
lake, and I think that is where I am reaching out into.
    Do you have a perspective on that? Fish and Wildlife, while 
I understand they might have a concern on that, though you 
could restock minnows back into a lake and it is not going to 
affect the life cycle there in the lake, I'm trying to figure 
out how it affects clean water.
    Ms. Stoner. I do not think the provision has a requirement 
that water availability is related to this. This is actually 
passed by Congress to address the issue of impingement and 
entrainment. That is my understanding.
    Mr. Lankford. OK. But there is no restriction as far as the 
number there. For instance, a new threshold has been set, and I 
am trying to figure out the arbitrary nature of how many fish 
can die on it. So the new proposal that I have seen basically 
decreases the size of the mesh there and says you have got to 
go from three-eighths of an inch into a much smaller mesh, 
correct?
    Ms. Stoner. Meshes are part of the proposal, yes, sir.
    Mr. Lankford. Correct. So a much smaller mesh on it. So you 
have fewer number of fish. So let's say there are 5,000 fish a 
year die on a three-eighths inch. Now you are going to reduce 
it down. Maybe there will only be 1,000. Is that a better 
number?
    How is EPA deciding how many fish is the appropriate number 
to be impinged on each site?
    Ms. Stoner. The requirement of the statute is to apply BTA, 
which is the best technology available. That is the standard 
that we are applying.
    Mr. Lankford. According to what cost-to-benefit ratio?
    Ms. Stoner. It is available technology. So you look at how 
well it works. Is it available everywhere? And cost issues, as 
I mentioned earlier are among the factors that can be 
considered by States in determining what to do for a particular 
plant under the entrainment proposed standard that the Agency 
has put out for public comment.
    Mr. Lankford. So best technology available on it, let's say 
there is a \3/8\-inch mesh on the screen. They look at it and 
they say, ``OK. There is someone out there that manufactures 
one that is a quarter inch.'' So several million dollars, let's 
say now we have taken it down to 5,000 fish a year that died on 
this are the minnows. So now we are at 3,500 fish.
    Five years from now they say, ``You know what? Someone has 
a slightly smaller mesh that is going to actually reduce it by 
another 50 fish a year that die on that.''
    What I am trying to look for is it seems to be an arbitrary 
standard of saying every time someone invents some new 
technology to go to a power plant and say, ``OK. Now you have 
to do this,'' which then passes on to ratepayers and we see no 
real difference in the environment. We have now reduced the 
number of minnows that have been impinged, which minnows 
proliferate in a lake, and I am trying to figure out where does 
this come from.
    Why are we taking this on with the rising cost of 
electricity that we are also trying to pursue this? To what 
benefit are we trying to achieve?
    Ms. Stoner. Three, sixteen (b) of the Clean Water Act 
mandates the use of technology based standards for cooling 
water intakes to minimize adverse environmental impact. So what 
we are doing is applying the law.
    Mr. Lankford. Right. That is what I am trying to get at. 
What is the adverse environmental impact?
    Ms. Stoner. Loss of fish and other creatures that are 
impinged or entrained in the cooling water structures.
    Mr. Lankford. OK. So if a company came out and said, 
``5,000 minnows died on this. I am going to release 5,000 
minnows a year back into the lake,'' would that solve the 
problem?
    We have now solved an adverse environmental impact on it. 
That is what I am trying to say. There seems to be no 
scientific evidence that there is an adverse environmental 
impact in this, only a preference that we want to protect 5,000 
minnows.
    Ms. Stoner. Well, there is science about the data on fish 
loss associated with these kinds of structures, and so what we 
are doing is evaluating the best technologies available to 
address this problem as we were directed to do by Congress.
    Mr. Lankford. Should there be the possibility of the 
cheapest technology that accomplishes the purpose? Because if 
there are 5,000 minnows die and we say, ``OK. That is a problem 
that there have been 5,000 minnows in a giant lake that have 
died,'' restock 5,000 minnows a year and clean your filter. 
That seems to be as efficient, but it is not going to cost 
millions and millions of dollars to change out screens and 
dramatically increase the cost to the ratepayer.
    Ms. Stoner. We have also had some court decisions that have 
limited our ability to consider the kind of approach that you 
are talking about.
    Mr. Lankford. And what role did the EPA have in 
conversation with the outside entities for those court 
decisions? Were those settled or did those go through the 
entire process of litigation?
    Ms. Stoner. I am talking about a ruling by the court.
    Mr. Lankford. Were those a sue and settle situation where 
EPA was involved in the outside litigant as well?
    Ms. Stoner. Where there is a settlement there usually is 
not a court decision. I am talking about a court decision, not 
a settlement.
    Mr. Lankford. OK. My time has well expired. I yield back.
    Mr. Gibbs. Mrs. Capito.
    Mrs. Capito. Thank you, Mr. Chairman. Thank you.
    I wanted to ask and dig a little deeper on my colleague 
from West Virginia's questioning on the enhanced coordination 
and the 404 permits. As you know, and I think I have questioned 
you on this topic before on the jobs issue related to decisions 
that are made and what kind of considerations, well, I feel EPA 
should take into consideration, but what they are actually 
doing, and understanding that your primary goal, of course, is 
clean water, which we all appreciate and strive for.
    I would like to know in the budget, and so subsequent 
conversations after I have talked with you and actually the 
President questioned him; we had subsequent conversations with 
EPA, leading me to believe that at certain thresholds--I think 
it was $100 million projects that come before the EPA in terms 
of permitting--that job loss or job preservation is actually 
taken into consideration and calculated, although I have never 
seen a calculation.
    I would like to know what kind of resources in this budget 
are devoted to that from the EPA budget, devoted to looking at 
the economic impacts of the decisions that are being made.
    Ms. Stoner. We look at the economic impacts of every rule 
that we do. The nationwide rules that are done out of my 
office, we do an economic analysis associated with every one of 
those pursuant to an Executive order by the President.
    Mrs. Capito. And is that quantified in terms of actual job 
loss preservation or jobs gained?
    Ms. Stoner. It is economic impact.
    Mrs. Capito. So that is a no. It is not quantified by job 
loss. Specifically, like if this job goes forward, 600 new jobs 
would be. You do not quantify it like that, correct?
    Ms. Stoner. So, for example, for effluent guidelines we 
look at economic achievability. So one of the things we would 
take into account would be whether some portion of the 
businesses would close. So it looks at that issue with respect 
to effluent guidelines in particular.
    Mrs. Capito. Right. Well, I am asking specifically though. 
Then I know you look at it as an impact, but then is it 
quantified by the number of actual individuals that would be 
affected by that?
    Ms. Stoner. Economic achievability is a little more general 
concept.
    Mrs. Capito. OK, OK. So then you mentioned that the 
enhanced coordination is no longer going on pursuant to the 
court judgment. So then would the assumption be that the 
permitting process that is moving forward would be what was 
occurring before the enhanced coordination was issued in 2010?
    Ms. Stoner. That is correct.
    Mrs. Capito. OK. So that would be where the States and the 
Corps and the EPA, where the Corps decision is upheld and moved 
forward. That is correct?
    Ms. Stoner. EPA comments on Corps permits under the 404 
process. States have a role also with the 401 water quality 
certifications.
    Mrs. Capito. Right.
    Ms. Stoner. Under 402, at least in Appalachia, those are 
all issued by the States, and we have a commenting role with 
respect to those as well.
    Mrs. Capito. OK. Let me ask you a question on the 
difference between guidance and regulations because I know you 
have been issuing a lot of guidance. Why does the EPA choose to 
issue guidance instead of going into formal rulemaking 
procedures?
    Ms. Stoner. It varies by the topic and the circumstance. 
Often we try to do it because we feel like there is a need for 
greater clarity out there, something that the regulations 
address, but we feel like providing some additional detail to 
help individuals know how to comply and ensure that they have 
the permits that are needed, for example; that it can help to 
do that kind of thing.
    Mrs. Capito. Can the guidance be litigated? I mean, can 
somebody sue the EPA because they feel the guidance is faulty?
    Ms. Stoner. We do have such suits. Yes, we do.
    Mrs. Capito. You do. So it is not an evasion of the legal 
system to go for guidance as opposed to a formal rulemaking?
    Ms. Stoner. No, it is part of the administrative 
procedures.
    Mrs. Capito. Is it a quicker process when you move to 
guidance?
    Ms. Stoner. Often it is. We have been putting a number of 
our guidances out for public comment to ensure that we have 
good input into those even though they are guidances. That is 
not required, but we have been doing it.
    Mrs. Capito. Is guidance optional?
    Ms. Stoner. Yes, it is.
    Mrs. Capito. So there is no fining or penalties associated 
if you don't follow the guidance?
    Ms. Stoner. Guidance is recommendations. So it is 
recommendations and clarifications to help the regulated 
community, our State partners, local entities, and so forth 
understand what the law is. The law is contained in the statute 
and the regulations.
    Mrs. Capito. Thank you. Thank you.
    Mr. Gibbs. Before I move on to the next question of Mr. 
Cravaack, I want to clarify, Ms. Stoner. I do not believe that 
guidance is defined in the Administrative Procedures Act. Did 
you misspeak there?
    Ms. Stoner. I did not mean necessarily it was in the 
statute, but there is lots of case law on guidance as an 
element of the administrative--I meant administrative process, 
that there is lots of case law about it. There are lots of 
guidances that have been upheld. It is not subject to the 
requirements of the Administrative Procedures Act, and you are 
right about that.
    Mr. Gibbs. OK. Mr. Cravaack.
    Mr. Cravaack. Thank you, Mr. Chairman, and thank you for 
being here today.
    But do you realize that the guidance associated with what 
the EPA puts out has economic ramifications associated with it? 
You realize that, do you not?
    Ms. Stoner. It depends on the guidance.
    Mr. Cravaack. OK. I will tell you that it does, especially 
in the timber industry. When EPA starts putting out a guidance, 
there is pressure that is placed upon companies or logging 
firms from outside sources, environmentalists that say, ``You 
had better start complying with this guidance or we are going 
to come after you.''
    So be very careful when you issue out guidance because 
those guidances become de facto mandates.
    I have a question for you, Ms. Stoner. How much is budgeted 
for your legal defense? How much do you have budgeted for your 
legal defense?
    Ms. Stoner. Yes. I do not know the answer to that question. 
We could attempt to figure out an answer to that question and 
get back to you.
    Mr. Cravaack. OK. Let me ask you a question. In your 
budgeting process, you budget quite a bit for grants, do you 
not?
    Ms. Stoner. Yes, we do, particularly grants to State 
entities that work with us in partnership to implement the 
Clean Water Act and the Safe Drinking Water Act.
    Mr. Cravaack. OK. When the EPA gets sued, do you pay for 
the legal defense of the organizations that sue the EPA?
    Ms. Stoner. It depends on what happens in the suit. The 
Clean Water Act does have provisions that allow attorney's fees 
to be collected by those who win in court.
    Mr. Cravaack. That win in court. OK. What about giving 
grants to institutions that have a repetitive nature of suing 
the EPA?
    Ms. Stoner. I am not aware of grants that go to entities 
that sue the EPA.
    Mr. Cravaack. Have you looked?
    Ms. Stoner. I would say that I have not looked at every 
grant, but most of them go to State entities or entities that 
provide technical assistance or other kinds of support for the 
Clean Water and Safe Drinking Water Act Programs. I am not 
aware of grants that are funding litigation.
    Now, as I said, attorney's fees sometimes are paid to 
entities that have sued the EPA successfully.
    Mr. Cravaack. OK. You know, we have a tremendous 
opportunity in the Eighth District of Minnesota. We sit on the 
second richest precious metals in the world in the Eighth 
District of Minnesota, and we have a couple different companies 
who are very interested in getting those precious metals out of 
the earth that we need. They go in everything from our cell 
phones to our computers, to the weaponry of the United States. 
We have to have these precious metals whether we import them or 
we actually extract them domestically.
    My question is I am looking at this long process with this 
one entity within the Eighth District of Minnesota. It has 
taken well over 6 years now, $35 million. They have already had 
one EIS. It seems it did not meet the standard, and it seemed 
like basically the problem was the agencies, Federal and State, 
were not talking well with one another and telling this entity 
what to do.
    What are you doing to try to ensure that you bring a 
cooperative agency? I am an airline pilot. One of the worst 
things you could hear is the FAA come in the cockpit and say, 
``Hi. I am from the FAA. I am here to help.''
    You know, we are finding that with the EPA as well. What 
are you doing to create a partnership with businesses to try to 
alleviate issues before they become issues?
    Like we have just had another delay in this process, and it 
keeps on pushing out and pushing out to a point where it is 
almost becoming a political issue more than it is becoming an 
issue of fact.
    So I am asking you, Ms. Stoner: what are you doing as the 
head, as the lead to ensure that your agencies are working 
correctly and expeditiously with business so that they can do 
the right thing, but let's get it done?
    Ms. Stoner. We have regular meetings with businesses of 
many different kinds in my office, including regular outreach 
to small businesses, and a lot of the issues that we talk about 
are how to ensure that requirements are clear, that they are 
well understood, that businesses can meet them and achieve 
whatever the goal is of their business as well. And we have 
those regular engagements. We have an office that actually does 
this, along with all the program offices like Mathy's and mine.
    Mr. Cravaack. Well, I would appreciate very much if you 
would take interest in this because, quite frankly, we have a 
great opportunity here. We are going to do the right thing, but 
we just need to know the right thing to do, and to move it on 
as expeditiously as possible because this is a national 
security issue in the aspect of harvesting these precious 
metals that we all need, and it is also a jobs issue as well.
    So with that I am over my time. I thank you for your time, 
and I yield back.
    Mr. Gibbs. Thank you.
    Mr. Ribble.
    Mr. Ribble. Thank you, Mr. Chairman. Ms. Stoner, thank you 
for being here today.
    I want to go back to the issue of impingement and power 
plant cooling systems. Are you familiar Executive Order 13-563?
    Ms. Stoner. I am not sure which one that is. If you could 
remind me I would appreciate it.
    Mr. Ribble. The President's Executive order deals with 
basing regulatory approaches and freedom of choice for the 
public.
    The President has been fairly clear that he wants to make 
sure that the cost-benefit analysis is actually done correctly, 
but isn't it true that the EPA published a rule in the Federal 
Register detailing the cost of this proposal? This proposed 
rule would be around $384 million annually, while the social 
benefit would only be $18 million.
    Ms. Stoner. I do not have those numbers, but I assume that 
you are providing correct information.
    Mr. Ribble. Yes, I think I am as well. And I am curious. 
How does that number, $384 million in cost with only $18 
million in benefit, how is that consistent with Executive Order 
13-563?
    If you do not know the answer, I would like you to provide 
it for me later. That would be acceptable.
    Ms. Stoner. The Executive orders that I am familiar with 
talk about analyzing costs and benefits and understanding them. 
Cost and benefit analysis is part of the regulatory process, 
but we are not always in a situation where monetized benefits 
exceed monetized cost, and often that is because it is more 
difficult to figure out how to monetize benefits. Costs are 
easier to get data on.
    So it is not necessarily inconsistent with that, but the 
process enables us to think through that with our Federal 
colleagues.
    Mr. Ribble. Well, the cost-benefit analyses that I am 
mostly concerned about are constituents in Wisconsin that may 
have to choose between paying for a food bill or paying the 
electric bill. I look at the combined.
    Have you done any analysis to tell me what the combined 
impact is on coal and nuclear power plants when you add this 
particular rule as well as some of the area missions rules? 
Have you done any combined analysis on that? It seems like kind 
of a pretty big head. I am concerned about power costs really 
inflating here.
    Ms. Stoner. We are looking at talking with the Air Office 
and others to make sure we understand the impact of multiple 
regulatory requirements, and as I said earlier, we are also 
very interested in how our work can help support the economy, 
and that is one of our goals, is to make sure that resource 
protection can support the economy.
    Mr. Ribble. Well, it looks like it is pretty much out of 
whack with the cost of $384 million versus only $18 million 
social benefit.
    There are 690 power plants nationwide, but there were only 
3 plants chosen for the data set. Why was that?
    Ms. Stoner. I will have to get back to you on that.
    Mr. Ribble. And they were all done in one region of the 
country; is that correct?
    Ms. Stoner. I will have to get back to you on where the 
data came from.
    Mr. Ribble. I would appreciate it if you would because it 
appears to me that you are trying to put a one size fits all 
approach by having such a small data set.
    The other question I want to know is if power plants comply 
with the new rules, the new rules are promulgated and they 
comply and they spend this roughly $384 million nationally to 
do it, what assurances do they have that in a year or two from 
now you will not change the standard again? Will they be 
grandfathered in if they comply today and you change the rule 
tomorrow?
    Ms. Stoner. The rules do not change very rapidly. And also 
on the one size fits all issue, if you looked at our proposal 
on 316(b), you will note that the proposal actually does not 
have a national standard at all for entrainment, but rather a 
best professional judgment approach that would be determined by 
States based on a variety of local factors.
    Mr. Ribble. OK. Thank you for that clarification.
    Going back to the underlying question then, what assurances 
does the industry have that if they meet the standard today, 
they spend millions and millions and millions of dollars, that 
in another 2 years you will not change the standard to rather 
than killing 31 percent of the fish capture per month to 21 
percent? What assurances do they have if they do what you ask 
them that you will not move the bar again?
    Ms. Stoner. The Effluent Guidelines Program has periodic 
reviews of the effluent guidelines to update them, and one of 
the rules of thumb that we use is that we do not look at the 
effluent guidelines that have been done within the past 6 to 7 
years, and it takes several years to update effluent 
guidelines.
    So there actually is a long period of time before effluent 
guidelines are updated. Most of them actually are from the 
1980s that we have in place today, and so technologies actually 
remain in place for a very long time, and those standards 
remain in place for a very long time.
    Mr. Ribble. I am out of time, and thank you very much, Mr. 
Chairman.
    Mr. Gibbs. We are going to do another round of questions. I 
am going to start and the Members who came in here, we will get 
to them in just a minute.
    Ms. Stoner, I wanted to go back a little bit and talk about 
the comments. You said 230,000 comments were recorded in the 
Federal Register. Are the EPA and the Corps developing a 
comprehensive response to all those public comments?
    And if you can, can you please describe in detail and 
address each one of those comments, concerns, what they were 
and be specific with some of the answers?
    Ms. Stoner. I do not think we have a long enough time for 
me to describe 230,000 comments, but we did analyze all of them 
and have looked to make a number of clarifications to the 
guidance based on misunderstandings of the draft guidance.
    Mr. Gibbs. Are you going to do a document going through and 
explaining that for the record so that we have that?
    Ms. Stoner. We are preparing a response to the comments, 
yes, Mr. Chairman.
    Mr. Gibbs. What is the timetable on that? You have put out 
another draft, you know.
    Ms. Stoner. It will come out with the final guidance.
    Mr. Gibbs. OK. Because we would be very interested in 
seeing that.
    I want to talk a little bit more. We have had a lot of 
discussion in the questions about guidance and the expected 
timing of the so-called Clean Water Act jurisdiction guidance. 
We actually had a hearing last year, and we had State EPA 
people in here, and there was a concern. If you could expound a 
little bit on guidance, does it affect the rights and 
responsibilities of the people in the regulated community?
    Ms. Stoner. It is recommendations. So again, it is intended 
to help individuals figure out how to comply with the 
requirement. It is also----
    Mr. Gibbs. OK. So it would not be mandatory because people 
ignore the guidance then?
    Ms. Stoner. It reflects our understanding of the statutes 
and the regulations. The statutes and the regulations are what 
is binding, not a guidance document.
    Mr. Gibbs. OK. Because there is a lot of going around in 
circles. We had State EPA people in here at one hearing, and 
they were really concerned. So you know that this guidance 
sometimes was conflicting with State and Federal in their 
interpretation, and of course, with the courts you go round and 
round and about.
    So I guess we have a concern. Are these guidances kind of 
circumventing the regular rulemaking process and more of the 
comments and openings? So, I guess I am just voicing my concern 
because I have heard that from both sides of the aisle at the 
State level, that you know, that really does apply and then 
actually having a de facto law through the guidances.
    Ms. Stoner. The point of the guidance is to provide greater 
clarity. That is the point of it, to help people understand 
what the statutes and the rules are.
    Mr. Gibbs. OK. I want to talk a little bit about the 
American nutrient standards, narrative standards, and as you I 
am sure know, under the current system of narrative, they take 
in all account of what is going on in a river or a water body, 
you know, pH, water flow, the biology, and moving to a 
numerical standard, you know, I do not know how the science can 
work. I have just got concerns of that.
    So what is the EPA doing? Are you really focusing more 
going to an American standard especially in the Mississippi 
River Basin compared to what we have done in the past, a 
narrative standard?
    Ms. Stoner. There are a number of States that are working 
on numeric standards, and then of course, EPA is also working 
on numeric standards in the State of Florida, and we think that 
they provide a lot of benefits in terms of, again, clarity, but 
we are working to make sure that we have good scientific 
foundation.
    I heard you say that you are interested in that, and we are 
as well and have been working to get peer review of our science 
to make sure that we have very good----
    Mr. Gibbs. On flow through the EPA and States, is there 
additional financial burden by moving to the numerical 
standard?
    Ms. Stoner. No water quality standard is directly 
applicable. It has to be translated through a permitting 
process to be directly applicable. A numeric standard is not 
necessarily more or less stringent than a narrative standard, 
but it does facilitate implementation.
    Mr. Gibbs. Now, would you still be combining the narrative 
part in that with numerical or are the numerical going to be 
overriding?
    Ms. Stoner. Both are important. Narrative standards do a 
lot of good out there in addressing water quality issues as 
well as numeric, and sometimes one is appropriate, sometimes 
another, sometimes both. It is really all designed to meet the 
designated uses of those water bodies, what the waters are used 
for to make sure that they are safe for use.
    And States set those uses, and the standards are designed 
to ensure that people know they can use the water safely.
    Mr. Gibbs. Just one quick question. I asked this yesterday 
to Secretary Darcy about the phosphate mining permits in 
Florida and trying to expedite those because, you know, we are 
going to lose that. They are bringing in raw material to 
produce phosphorus fertilizer from Morocco, China, and Saudi 
Arabia, and can you just comment quickly on what the status is 
of the EPA on those permits?
    Ms. Stoner. My guess is that Ms. Darcy knows more about it 
than I do.
    Mr. Gibbs. OK. So you don't have any----
    Ms. Stoner. I do not have specific information about those 
permits.
    Mr. Gibbs. You do not have any interaction with the EPA at 
your level with the Corps? The Corps is actually administering 
that themselves and EPA is not involved in that?
    Ms. Stoner. I do not know that no one is involved in it, 
but I am not personally involved, and I am sure Ms. Darcy knows 
more.
    Mr. Gibbs. Can you get back to me on that question?
    Ms. Stoner. Yes, Mr. Chairman, I would be happy to.
    Mr. Gibbs. We can see what EPA's involvement is in that 
permitting process because I think it is of strategic national 
importance that we know what is going on there. We are going to 
lose another industry.
    Representative.
    Mrs. Napolitano. Thank you, Mr. Chairman, and I am sorry I 
was absent. I had another hearing somewhere else that I had to 
go vote on.
    But one of the things that I would like to ask either one 
of you, there is the San Gabriel Valley Superfund that has been 
ongoing for at least a good 15 years, has probably another 15 
to go, and my understanding is the funding has been either 
reduced or cut, and it is going to take a lot more.
    I know the PRPs, the potential responsible parties, have 
come to the table thanks to EPA, and they are working, and it 
is a community that services millions of people, probably 
around 15, 20 cities, and I certainly would like to have a 
followup and find out when we can count on EPA to continue 
helping clean up that aquifer.
    It gathers at Whittier Narrows Dam and services probably a 
good 15 cities below the Whittier Narrow and the underground 
aquifers meet, and it is critical for us to continue. It has 
shrunk. It is getting better, and apparently they had a failing 
in one of the pumping plants recently, and they figured out it 
was an error probably manmade rather than--I am sorry. It was a 
mechanical failure, not man, and those are things that I would 
love to have you please report to us and this subcommittee if 
they are so interested.
    But I certainly wanted to tell you that your former Region 
9 director, Wayne Nastri, and your current director have been 
exceedingly helpful to the 77 cities that I put together 
through the Councils of Government to talk to them and then 
have them direct the questions that are vital to running the 
communities directly. These are elected officials, and they 
have been very exceedingly helpful in addressing some of these 
issues, and I suggest others try to do the same at the local 
level because it does take the onus off of us coming here and 
going after EPA because things are happening in their own 
backyard.
    Another area is those living in small communities, 
especially those in Texas and the colonias or tribal land 
specifically do not have the same access to traditional water 
and waste water supply systems, and I would like to know how 
EPA will allocate and distribute the 2013 funding for Clean 
Water Act, Section 106, the Water Pollution Control Program 
grants.
    Now, the colonias do not have sidewalks. They do not have 
electricity. They do not have running water, and as you can 
see, they probably have a lot of issues with health services, 
and I am assuming that tribal lands are very much in the same 
boat. Have the colonias, their assistance program and the U.S.-
Mexican Border Water Infrastructure Program successfully 
addressed--I think they are working on it--the needs of these 
disenfranchised communities?
    Then there are a couple more questions, but I would like to 
start with that one.
    Ms. Stoner. We do have a program, U.S.-Mexico Border 
Program that is of assistance to many of those communities. We 
are seeking actually an increase in that program over the 
fiscal year 2012 enacted budget of $5 million. That is a 
program that provides first time access to safe water and 
sanitation.
    Mrs. Napolitano. I am sorry, but is $5 million enough? 
Because you are talking a whole area, a whole border area that 
has been neglected for decades.
    Ms. Stoner. Well, it was the best that we could do in terms 
of request for this budget, but there are great needs in that 
area, absolutely. It is a very important program and, as I 
said, provides first time access to many Americans who have not 
previously had sanitation and safe drinking water.
    Mrs. Napolitano. I will add them to my Indian rhetoric on 
how we are not helping them.
    Has EPA's U.S.-Mexico Border 2012 Program been successful 
in opening the dialogue about the need of environmental 
protection along our border and what are your goals for the 
2020 program? Is there sufficient funding? And you just told me 
there is not necessarily enough money there.
    But I might want to throw in what about the funding for 
tribal access.
    Ms. Stoner. Yes, tribal access is a priority in the budget 
as well. So even though we have a budget cut, we are seeking an 
increase in that funding, and we view that as a very important 
program.
    Mrs. Napolitano. But what about the border? You are working 
with the Border Committee that is composed of elected and the 
Members of Congress?
    Ms. Stoner. We are working closely with a lot of different 
entities, and the other important thing about that program is 
there has been some misunderstanding that it is a foreign aid 
program. This is actually dollars that go to benefit Americans 
who live along the border. All of the projects benefit U.S. 
citizens.
    Mrs. Napolitano. Thank you, and I beg your indulgence, Mr. 
Chairman.
    Your testimony stated the 2013 budget requested $1.175 
billion for Clean Water State Revolving and $850 million for 
Drinking Water State Revolving, a reduction of $359 million. 
But that level will still enable States and tribes to begin 
approximately 500 clean water and the 400 drinking water 
programs.
    But how are you going to do the outreach and target? How 
are you going to prioritize and target to small and 
disenfranchised communities who have limited access, cannot 
come here and lobby, cannot know what to do and where to go to?
    Ms. Stoner. That money does go to State entities to 
redistribute it, but we do encourage funding to small 
communities and communities that have difficulty getting loans 
in the outside markets.
    We also have a grant out right now for technical assistance 
to small communities, and so that is something that we are 
seeking assistance right now to help small communities address 
their needs.
    Mrs. Napolitano. Have you looked at maybe the public-
private partnerships, the three Ps, to be able to bring in 
outside assistance?
    Ms. Stoner. Well, as I am sure you know, the President has 
an infrastructure bank proposal that includes water and waste 
water, and so that is one funding mechanism that the President 
has indicated his support for and has urged Congress to look 
at.
    Mrs. Napolitano. Well, may I suggest that we look at 
private investment also? Because they will get paid back. Most 
of those will be loans that are going to be guaranteed by the 
Federal Government if we start something, a program that is 
going to help these entities and not wait for another decade.
    Ms. Stoner. Thank you for that comment.
    Mrs. Napolitano. Thank you.
    The last one or Mr. Stanislaus. I am sorry, sir, I was not 
here for the first round. Is EPA incorporating green technology 
in Brownfields cleanup programs and the associated job training 
programs? And underserved and disadvantaged include education 
and job training and retraining and green technologies, use of 
solar, wind energy, et cetera.
    And you noted that in fiscal year 2013, you plan to award 
additional 20 areawide Brownfields planning projects.
    Are they located in the border region? And if so, where are 
they?
    Mr. Stanislaus. OK. So let me deal with the areawide 
planning. It is going to be a national competition. We are 
going to focus on economically distressed communities as we did 
in the prior round, and we will do some targeted outreach to 
smaller communities. A lot of smaller communities ask us to do 
that. Tribal communities have asked us. So we will be doing 
some targeted outreach to make sure that smaller communities 
can compete fairly.
    Mrs. Napolitano. But what chance do they have when they may 
not know the process? They may not be able to afford to have a 
grant right or they may not afford to be able to do a lot of 
that. How are you going to address that? What priorities are 
you going to give the small communities?
    Mr. Stanislaus. That is a very good point. What we did last 
time, we did a number of targeted outreach efforts to them. In 
fact, the majority of areawide grants that we gave last time 
was to smaller communities, and I welcome additional efforts 
that we can take to make sure we do, in fact, do the outreach.
    In fact, we have done workshops on how to prepare the 
grants themselves because we really appreciate the difference 
in capacity between large communities and small communities and 
where to kind of equalize the playing field. So we plan to do 
that.
    Mrs. Napolitano. Are you working with the education 
institutions to be able to train them to be able to assist 
these entities in their area?
    Mr. Stanislaus. We have done outreach to educational 
institutions, and the specific ones that we can do outreach to, 
please let us know and we will do that.
    Mrs. Napolitano. Very much, sir. Thank you so much for your 
indulgence, Mr. Chair.
    Mr. Stanislaus. And I will just mention I will get back to 
you on the Superfund site you mentioned.
    Mr. Gibbs. Mr. Lankford.
    Mr. Lankford. Thank you.
    Ms. Stoner, just to finish up real quick on the 316(b) 
issue, I understand that is a court implemented extension of 
the plain reading of the 316(b). when you read the 316(b), 
you're not going to get this standard proficient impingement. 
The court has added that. I get that.
    I would propose at some point that we as a committee or 
others look at trying to clarify from the legislative side the 
impingement requirements, the best technology available, 
extension on that, because it seems to be an infinite extension 
that at any point if you have the possibility of impinging one 
less fish that is a never-ending cycle, the percentage decrease 
on impingement.
    But with that, the courts have gone through and they have 
clarified the cost-benefit ratio, and so what Mr. Ribble 
brought up before seems to be a very pertinent issue if we 
cannot establish a cost-benefit ration that is consistent or 
that is rational, we have an issue with that no matter what the 
best technology available requirements may be.
    And so I would continue to press on EPA to say you have to 
look at the cost-benefit on this. That has been reaffirmed by 
the courts.
    Let me shift over as well. I want to talk a little bit 
about the frack study that EPA has been doing with hydraulic 
fracking. What is the status on that study at this point?
    Ms. Stoner. So that is a study that the Office of Research 
and Development is leading, and it is a study looking at 
hydraulic fracturing and a number of aspects, gathering data 
across the country. One of the issues it is looking at is the 
relationship between hydraulic fracturing and drinking water. 
It is my understanding that there will be some information 
provided at the end of 2012 in terms of the first results of 
this study.
    Mr. Lankford. You are talking October, November, December 
or when you say into 2012?
    Ms. Stoner. That is the best information I have, the end of 
2012 is the schedule for the first installment, and then I 
believe the overall study will be completed in 2014.
    Mr. Lankford. OK. What is the status on the peer review on 
that? The law itself asks for the study that was done by the 
previous Congress also required a peer review process 
throughout the course of that. Where is that in standing with 
this as well?
    Ms. Stoner. I do not know the details of that, but I do 
believe there is peer review contemplated for that study.
    Mr. Lankford. Can you give me some confidence in this? 
Because here is part of my struggle. There is a requirement for 
the peer review, but my fear is that EPA is going to release 
initial findings that have not been peer reviewed and will make 
a giant media splash and then later a peer review will come 
back and look at it and say, ``Well, maybe that was not exactly 
right. It was more this.'' And then there will be a correction 
by EPA and there will be some conversation on that in years to 
come, and that will have no media splash, but what will come 
out initially will be what is not peer reviewed.
    Can you give me some confidence EPA will not release any 
preliminary findings until they have been peer reviewed as 
required by the study?
    Ms. Stoner. Do you want to say something?
    Mr. Stanislaus. Well, we will get back to you in terms of 
the peer review policy. Typically a peer review occurs before 
there is a public disclosure of the findings.
    [Environmental Protection Agency insert for the record 
follows:]

        EPA's general position is that, we do not expect to 
        release partial findings in advance of the peer review 
        process. However, if EPA finds results of urgent 
        concern regarding public health or environmental 
        impacts, particularly in evaluation of local 
        situations, we will immediately notify the appropriate 
        parties and begin action.

    Mr. Lankford. Given a leak. Because I just say that. Do we 
know at any point, at this point in the status any situation 
where hydraulic fracking has caused contamination in drinking 
water?
    Mr. Stanislaus. I cannot speak to that. I think the Office 
of Research and Development is leading that study, is examining 
that very question at the moment.
    Mr. Lankford. But at this point we do not know of any that 
you can point to and say that one is already there? Because we 
had Administrator Jackson obviously several months ago and 
asked the same question on that. That has been several months, 
and I just want to be able to follow up and say, ``I heard 
their response several months ago. Where are we now at this 
point through the process? Do we know of any situation 
nationwide where hydraulic fracking has cause contamination in 
drinking water?''
    Mr. Stanislaus. I do not know specifically the extent of 
the Office of Research and Development's analysis of that. 
Clearly, that is something that they will be incorporating as 
part of their study.
    Mr. Lankford. OK, and you anticipate the release of all of 
this somewhere towards the end of this year?
    Mr. Stanislaus. That is my understanding, but we can get 
back to you on the specific dates.
    [Environmental Protection Agency insert for the record 
follows:]

        A first report on the study will be released for peer 
        review in late 2012. The second report is scheduled for 
        release to peer review in 2014.

    Mr. Lankford. OK. Ms. Stoner? OK.
    With that I yield back.
    Mr. Gibbs. Mr. Harris.
    Dr. Harris. Thank you very much, Mr. Chairman.
    Let me just follow up a little bit about that and ask a 
question. Is there any funding in the EPA Office of Water that 
is going to go toward that study of hydraulic fracturing? Any 
resources out of your office?
    Ms. Stoner. The lead on the study that we were just talking 
about is the Office of Research and Development. We also have 
activities with respect to hydraulic fracturing that are part 
of the Office of Water's budget.
    Dr. Harris. OK, and to what extent? Because our 
understanding is that there are now ten different agencies 
involved, and now it looks like there are actually two areas of 
the EPA that are involved. So what is the extent of your budget 
involvement?
    Ms. Stoner. What we are doing is looking at the 
applicability of the Clean Water Act and the Safe Drinking 
Water Act to hydraulic fracturing and to the disposal of the 
waste water associated with it.
    Dr. Harris. Right, and that is exactly the same thing the 
Office of Research is doing as well. So I am confused perhaps, 
but if you could get back to us and just determine whether 
there are, you know, line items in the budget or it is just 
going to come out of general office funds, I would appreciate 
that because, you know, the gentleman from Oklahoma makes a 
very good point because the word we get is that, in fact, this 
will probably be released just like the last one before a peer 
review study is done.
    We think that is a little unusual. So I am very encouraged 
to hear that your position would actually be that peer review 
should occur first. And thank you very much because you are 
absolutely right. You know, despite what you read in the press, 
there is no cause and effect relationship between hydraulic 
fracturing and drinking water contamination that has been 
proven scientifically. You got it right. The press gets it 
wrong continually.
    Let me just ask with regard to the TMDLs, and I would also 
like an idea with regard to the Chesapeake Bay there is $14.4 
million in grants that is in your prepared testimony that goes 
toward the TMDL implementation. Are there other monies in the 
Office of Water that is going to help the local jurisdictions 
implement the TMDLs or is that it?
    Ms. Stoner. Well, the funding under 106 goes to States 
including those in the Chesapeake Bay.
    Dr. Harris. So how much is going to the States in the 
Chesapeake Bay out of that?
    Ms. Stoner. I cannot give you that number off----
    Dr. Harris. Can you get that back to me? Because you know 
what is striking is that just one county in my congressional 
district actually has a cost estimate of $2.3 billion placed on 
that country, $2.3 billion place on that county as a result of 
TMDL requirements, and I am afraid this is just going to be 
another huge unfunded EPA mandate, this time not on industry 
although it also is on industry on the poultry and farm 
industry as well, but also on our local jurisdiction.
    So it appears you are branching out. You know, you are 
equal opportunity. You do not just pick on the energy 
companies. You do not just pick on private industry, but now 
you are actually going after governments as well and causing 
them to spend money at a time of economic crisis.
    I will remind you that our Governor and the general 
assembly are going to wind up next week, and they are going to 
have to pass fairly huge tax increases, and that is even before 
they have to begin complying with huge TMDL costs.
    Let me just finish up by asking you about the 316(b). I am 
sorry I was not here for the first round. Ms. Stoner, about how 
many plants that met the old EPA's definition of closed cycle 
cooling do you think do not meet the new definition? Is there a 
number of plants?
    Because I know there was an estimated cost that you had 
given to upgrade, but do you have an idea of the number of 
plants that the new rule would affect?
    Ms. Stoner. The old rule had to do with new plants, and the 
current rule that we have proposed and will be finalized has to 
do with existing structures.
    Dr. Harris. Correct. That is what I mean. Those, how many 
of those will it affect? How many will be affected by the 
change in that rule for old, existing plants?
    Ms. Stoner. Well, if they do closed cycle cooling again, 
they are already in compliance.
    Dr. Harris. Except that the definition of closed cycle 
cooling kind of changed a little bit. I mean, it became much 
more specific with regards to how often you have to recycle 
your water and things like that. Is that right? That is my 
understanding.
    We kind of changed the rules in midstream on these 
companies that invested hundreds of millions of dollars.
    Ms. Stoner. Well, first of all, that rule has not been 
finalized yet. So we have not made any final determination on 
it.
    Dr. Harris. All right. Let's assume it is finalized. When 
you proposed the rule, did you take into consideration how many 
plants it would affect?
    Ms. Stoner. We have an economic analysis that goes with our 
proposed rule, yes.
    Dr. Harris. OK. If you could forward it to me, I would 
appreciate that.
    You know, I share the concern that was voiced before. You 
know, you say that rules take a long time to change, but you 
know, the President just announced a couple of days ago that 
once he gets reelected there is some flexibility. Now, I am 
afraid that one of the flexibilities is going to be that now we 
can actually speed along the rulemaking process, and what used 
to take 10 or 15 years to change we can change in a year or two 
with a new rule.
    Since this 316(b) rule change is already a change to a rule 
that was already in place, is it true that, in fact, without 
legislative definition that, in fact, the EPA could, in a 
period of new flexibility in a reelected administration, could, 
in fact, decide 2 years from now to just come up with another 
rule for 316(b)?
    Is that true? In other words, given the current state of 
the wording, because my understanding of the wording is it 
gives you fairly broad authority to say, ``Well, yes, you have 
to use the best available, you know, methods to minimize 
environmental impact,'' you could decide 2 years that now there 
are new best available methods to minimize the environmental 
impact and come out with new rules. Is that theoretically 
possible in a new flexible era?
    Ms. Stoner. We have been working on coming up with one rule 
for approximately 20 years.
    Dr. Harris. OK. Is it theoretically possible in a new era 
of flexibility to come up with a rule in another 2 years 
without separate legislative guidance making it clear, you 
know, what the limits are at the EPA?
    Ms. Stoner. I think if you would look at the timeframe that 
it takes to do rules the answer would be that it will not 
happen.
    Dr. Harris. What is the shortest period of time you could 
do it if you decided tomorrow that that rule was not the best 
available technology and you wanted to change it? Three years?
    Ms. Stoner. I think it would take several years.
    Dr. Harris. Not 20, not 10? Well, within the second 
administration, the new, flexible administration?
    It is possible within 4 years. Let me put it simply. Is it 
possible within 4 years?
    Ms. Stoner. I am trying to provide you accurate information 
about how long it actually takes to do a rule.
    Dr. Harris. Is it possible within 4 years? Look. I am not 
the Administrator. You are. Is it possible if you had your mind 
set on it you could do it within 4 years?
    It is a simple question. This is not complicated.
    Ms. Stoner. What I am trying to reflect is that there is no 
intention to do another 316(b) rule, and what we are trying to 
do is finish the 316(b) rules that are required by Congress 
that we have not yet finished and we have been working on it 
for approximately two decades.
    Dr. Harris. Can you submit the answer in writing maybe? 
Because obviously you are not willing to say whether it can be 
done in 4 years or not. I mean that is a pretty simple 
question. I do not understand, you know, the bureaucracy, but I 
will bet my bottom dollar that if somebody in a new era of 
flexibility decided they wanted to change this rule, I will bet 
you it could be done in 4 years even if you are not willing to 
admit it in front of this committee today.
    Thank you, Mr. Chairman, for your indulgence. I yield back.
    Mr. Gibbs. Thank you. Mr. Landry.
    Mr. Landry. Thank you, Mr. Chairman.
    Ms. Stoner, where did you grow up? What part of the 
country?
    Ms. Stoner. I am from Waynesboro, Virginia.
    Mr. Landry. Virginia, OK. Well, unfortunately where you 
grew up you were not like 30 other States in this country that 
make up the Mississippi River basin, and that when all of those 
people in the majority of the States, when they flush their 
toilet, it eventually makes its way down through Louisiana.
    And the question I have for you is pretty simple. Why are 
you imposing on the State of Louisiana the sole responsibility 
for the effects of everyone else in the country, or at least in 
30 other States when they flush their toilet, that we have got 
to be responsible for what makes its way down the Mississippi 
River?
    Ms. Stoner. That is actually not what we are doing, 
Congressman. So the situation with Louisiana and the dissolved 
oxygen standard that we listed certain coastal waters in 
Louisiana as not meeting their dissolved oxygen standard. 
Oxygen of course being important for fish to be able to 
breathe, that impairment only needs to be addressed by 
Louisiana in terms of discharges into the State of Louisiana.
    They are not responsible for upstream loads.
    Mr. Landry. But how are you going to differentiate because 
those water bodies that you are placing that rule on are 
impacted by the Mississippi River?
    Ms. Stoner. Absolutely, the Mississippi River Basin all 
flows down to Louisiana.
    Mr. Landry. Are we going to be able to pull a sample and 
say, ``No, this did not come from Louisiana''?
    Ms. Stoner. There is monitoring that is done, loading 
analysis that is done.
    Mr. Landry. You can tell which toilet it comes out of? I am 
just trying to understand.
    Ms. Stoner. Yes, the USGS does a really fine job in 
determining where loads are coming from, and Louisiana is not 
responsible for addressing loads that come from outside that 
State in responding to the impairment of dissolved oxygen along 
its coastal waters that impact its resources.
    Mr. Landry. But you are agreeing that these water bodies 
are impaired by pollution coming from the Mississippi River. 
You are agreeing with those comments, correct?
    Ms. Stoner. Absolutely, particularly the Dead Zone in the 
Gulf of Mexico.
    Mr. Landry. But you proceeded on listing these water 
bodies.
    Ms. Stoner. The water bodies are listed not based on where 
the pollution comes from. A listing has to do with whether or 
not the water body meets the water quality standards set by the 
State based on the use of those waters.
    Mr. Landry. But if other States are impacting the water 
quality in those water bodies, why are you holding our State 
solely responsible?
    Ms. Stoner. Again, we are actually not holding Louisiana 
responsible.
    Mr. Landry. Well, that is not what they are telling me in 
Louisiana. OK? Would you mind sending me a letter to that 
effect, in that statement stating so I can send it over to my 
Governor and get it over to our farmers and saying, ``Listen. 
EPA is not going to hold the State of Louisiana solely 
responsible for the impact in those water bodies''? Because 
that is exactly what you are saying.
    Would you mind giving me that in writing so that I could 
pass that on?
    Ms. Stoner. We would be happy to work with you on that.
    Mr. Landry. No, no, no. I do not want you to work with me. 
I just want you to send me a letter to that effect. Is that 
what we are going to have here?
    I mean, I know you are good. Let me tell you. Look. If you 
were a witness, I would want you on my side as a lawyer.
    Ms. Stoner. Thank you.
    Mr. Landry. But I am just asking you. The letter to that 
effect?
    Ms. Stoner. I think that I have actually signed letters to 
that effect. So I will look to see what I have and we will make 
sure your questions are answered.
    Mr. Landry. Thank you so much, Mr. Chairman. I yield back.
    Mrs. Napolitano. Would the gentleman yield? Would the 
gentleman yield?
    Mr. Landry. Yes, ma'am.
    Mrs. Napolitano. Well, as I suggested, why don't you have 
EPA go visit with your electeds and find out directly from them 
what it is that they need to find out? That way you do not have 
to have a letter because a letter will only explain so much, 
but if you ask them to come in and explain and show and give 
you the information, that may help your elected officials.
    Mr. Landry. What information?
    Mrs. Napolitano. Whatever you request in writing from them 
to come address.
    Mr. Landry. No, no, no. The problem is that they are 
listing water bodies, State water bodies, OK, that are impacted 
from Mississippi runoff, just like the majority of coastal 
Louisiana is being impacted by runoff from 30 other States, and 
they are holding us accountable and making sure that we have to 
develop total maximum daily load levels within the State of 
Louisiana that are not being addressed by all the other States, 
but she is telling me that it is different.
    And so if she sends us that letter and once we have that 
letter, when EPA comes in and starts demanding that we meet 
that particular criteria, I can show them that letter and say 
that we do not have to.
    Ms. Stoner. We would welcome the opportunity for dialogue 
with you about the Gulf of Mexico also and the strategy through 
the Hypoxia Task Force to address that.
    Mr. Landry. Well, I certainly do want to address that, but 
before we get there, which we could have gotten to had you not 
impacted these three other water bodies, listed these three 
other water bodies, so I want to get rid of those three other 
water bodies or address those, and then we are going to address 
hypoxia in the Dead Zone which has been there for the last 20 
years or so. So, I mean, it cannot be that important to you all 
because we have been having that problem for the last 20 years.
    Ms. Stoner. I agree that there is more work to be done 
there. In addressing the loadings from the State of Louisiana 
is a start, but to address the Dead Zone in the Gulf of Mexico, 
we do need to address loading----
    Mr. Landry. But to address that, you have got to address 
the 32 other States above us.
    Ms. Stoner. Everyone has a piece of that from the whole 
watershed, absolutely.
    Mr. Landry. OK.
    The Clerk. OK. Mr. Young just showed up. Mr. Young, go 
ahead.
    Mr. Young. Thank you, sir. I apologize for that.
    Ms. Stoner, the rule coming out of EPA would ban the use of 
urea chemical in de-icing runways, pavement actually. Where is 
the final rule in the process?
    Ms. Stoner. It is still over at OMB in interagency review, 
I believe.
    Mr. Young. When is the final rule expected? When do you 
think it will be published?
    Ms. Stoner. It should be sometime this spring.
    Mr. Young. Did you evaluate the impact of a ban on urea in 
climates with hearty and high precipitation and rain forests 
like Juneau? Did you do any studies at all?
    Ms. Stoner. We did a cost-benefit analysis associated with 
that rule.
    Mr. Young. And what was the decision of cost-benefit? You 
know, the difference between that, my understanding is $3,000 
per airport application versus $30,000; is that right?
    Ms. Stoner. I do not know those numbers, but----
    Mr. Young. OK. Well, what I am saying is in Alaska it is 
devastating. It is devastating. We have to de-ice. It is not 
like, you know, Washington, DC, or Phoenix, Arizona, or that 
place. We have to de-ice a runway. Especially this year we had 
the coldest year in the last 55 years in Alaska, and it is 
going to cost, to my understanding if it is $30,000--it is 10 
to 1 is what it boils down to.
    Was there any consideration given to that or did you study 
Alaska is what I am saying.
    Ms. Stoner. I am confident that we looked at different 
climates.
    Mr. Young. I would like to see some of the studies, who did 
it, and on what basis. Was it actually on field and activity or 
was it done in a room? I would like to see that.
    Ms. Stoner. I would be happy to, you know, provide you the 
information on what we did at the time the rule was finalized.
    Mr. Young. OK. Mr. Chairman, with all due respect, I am not 
mad with you. I am mad at your agency right now. Let's put it 
that way. You are the most overreaching, self-governing, stick 
it in your nose agency in the world without looking at what 
happens to people under the guise of protecting the 
environment.
    But you are not. No one is telling me where this is 
harmful. I want to know. It is just like you made that decision 
on high usage of fuels. Never had a study in Alaska. You put 
all of my ships down, including which delivers freight to my 
local people, on clean diesel because of stillbirths, no 
science, never studied it. You studied the Great Lakes.
    So I want to know did you actually have people on the 
ground, what was the report, who they were, what time. I want 
to see the whole thing. I want to see how you made this 
brilliant decision in the grand State of Alaska. If you can get 
that for me I really would appreciate it. And I do not want to 
wait 6 months.
    Go ahead.
    Ms. Stoner. Well, we did a cost-benefit analysis. We will 
see what----
    Mr. Young. That is all you did, is a cost-benefit analysis?
    Ms. Stoner. That is what we did. That is what we are 
required to do and that is what we did, yes, sir.
    Mr. Young. You are not required to do anything else? Who is 
required to do the other studies?
    Why was it put in place?
    Ms. Stoner. I mean there are other requirements of the law, 
considering best available technologies. Actually you are 
talking about an effluent guideline. So it is the best 
available technology economically achievable. We look at each 
element of those. We gather the best information about what 
technologies are in place, what airports are already doing, 
what airlines are already doing, what can be accommodated to 
achieve the benefits, and then we also look at what the 
benefits are, what the pollution reduction will accomplish.
    And that information will be available when the rule is 
finalized which should be this----
    Mr. Young. Again, I want to find out how it was done. I 
want to see people, where they are on the ground, when they 
were on the ground, what they studied.
    This is not a little bubble we are living in, and I bet I 
will find out there was nobody who went to Alaska to study it. 
I will find that out, Mr. Chairman, and when that happens, I am 
going to have you guys back to expose you, how you are running 
your operation with no science. Most of your decisions are done 
with no science.
    Cost-ratio benefit? Show me where the benefit comes when it 
is 30,000 versus 1,000.
    Ms. Stoner. There is science and technology evaluation, as 
well as cost-benefit analysis that goes along with every rule 
that we do, and we follow the law. We implement the best 
science that we can obtain.
    Mr. Young. The issue of using this liquid that you want to 
replace the urea with is a liquid, expensive, hard to store, I 
mean, all of these things. I want to see all of the results. I 
want to see the whole study and who did it.
    Mr. Chairman, I want to make sure you get it and look at it 
real closely. I think we can expose you for what you really are 
and why you should not get any more money.
    Thank you, Mr. Chairman.
    Mr. Gibbs. Thank you.
    That concludes the questions and the hearing. I just wanted 
to thank you for coming and re-emphasize we had a lot of 
discussion on guidance and I guess a concern, especially in the 
hearing we had last year when we had your State counterparts 
in. It was actually two hearings, the problem with their seeing 
the guidance, and you know, I think if we are not careful, we 
are putting a lot of stuff to the courts to decide and causing 
a lot of litigation.
    I hope especially in light of the recent court decisions 
that we just saw here since last fall, that we are not going to 
spend a lot of taxpayer money to prolong the inevitable when I 
think these decisions were good and we need to take heed of 
that.
    So thank you for coming, and this concludes this hearing.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]

</pre></body></html>
